     OFFICE OF INSPECTOR GENERAL




Congress
   Semiannual Report to the



           October 1, 2005 – March 31, 2006
       OFFICE OF INSPECTOR GENERAL




Congress
   Semiannual Report to the



            October 1, 2005 – March 31, 2006
Inspector General’s
Statement




The Corporation has faced a number of         application for federal deposit insurance.
significant issues over the past 6 months.    Wal-Mart Bank is a proposed Industrial
                                              Loan Company (ILC) headquartered in
The passage of deposit insurance reform       Salt Lake City, Utah. Wal-Mart’s applica-
legislation in February 2006 posed new        tion has generated considerable debate,
challenges as the Corporation began           and the FDIC held public hearings to
implementing some of the provisions           hear differing views in the Washington,
of the legislation. To date, the FDIC has     D.C., and Kansas City areas during April
merged the two deposit insurance funds        2006. The Corporation has not yet taken
into a single Deposit Insurance Fund and      action on this application and continues
raised the deposit insurance coverage on      to consider it.
certain retirement accounts to $250,000
from $100,000. In the months ahead,           Within the OIG during the reporting
more changes will occur as reforms are        period and currently, we face a significant
further implemented.                          challenge in implementing a change in
                                              the manner in which we frame, plan, and
Also during the current reporting period,     report on our work. Our 2006 Business
the Corporation continued its participa-      Plan is intended to be more strategic and
tion in the Federal Financial Institutions    more reflective of integrating the work
Examination Council’s Katrina Working         of all components of the OIG. Our new
Group and addressed supervisory policy        plan defines what guides us—our mission
issues emerging from the hurricane disas-     and vision; shows what we want to accom-
ter. The Corporation hosted a forum for       plish—our strategic goals; maps out how
financial institutions and their regulators   we plan to get there—our performance
in New Orleans on March 2 and 3: The          goals and key efforts; and provides a
Future of Banking on the Gulf Coast: Help-    means of assessing how we did through
ing Banks and Thrifts to Rebuild Commu-       performance reporting. It is within the
nities. The FDIC can be proud of its          context of the six strategic goals in our
efforts in responding to the Katrina disas-   new Business Plan that our results of
ter and will continue to monitor closely      the past 6 months are presented in this
the condition of the affected                 semiannual report.
financial institutions.
                                              To sustain our successful results, we
Finally, over the past months much atten-     included the OIG’s budget for $26.3 mil-
tion was focused on Wal-Mart Bank’s           lion in the fiscal year 2007 budget that
                                                                                            iii
iv                           SEMIANNUAL REPORT TO THE CONGRESS


     the President sent to the Congress. This        continued to lead the OIG as Deputy Inspec-
     reduced budget has been possible because of     tor General over the past 6 months. Further
     the improved health of the banking industry,    change is expected at the FDIC as Mr. Jon
     continued staff downsizing of the FDIC and      Rymer, nominee to serve as the FDIC
     OIG, and internal efforts to enhance per-       Inspector General, and Ms. Sheila Bair,
     formance and productivity.                      nominee to serve as the next FDIC Chair-
                                                     man, proceed through the Congressional
     Following the departure of former Chairman      confirmation process.
     Powell in November 2005, several significant
     changes that impact the OIG occurred in the     We look forward to a new Inspector General
     FDIC’s corporate governance structure. Vice     and a new Chairman joining the FDIC.
     Chairman Gruenberg was called upon to lead      Inspired by our business planning efforts
     the Corporation as Acting Chairman. Direc-      and communications and coordination with
     tor Thomas Curry assumed the role of Audit      our corporate and Congressional stakehold-
     Committee Chairman, a position previously       ers, we are ready to face new challenges in
     held by the Acting Chairman. I have appre-      the banking industry and renewed in our
     ciated the leadership and strong support of     commitment to carry out the OIG mission
     both of these senior FDIC officials as I have   at the FDIC.




                                                     Patricia M. Black
                                                     Deputy Inspector General
Table of Contents




Inspector General’s Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .iii
Highlights and Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


STRATEGIC GOAL AREAS

      Supervision: Assist the FDIC to Ensure the Nation’s
                   Banks Operate Safely and Soundly . . . . . . . . . . . . . . . . . . . . . . . . . .5

      Insurance: Help the FDIC Maintain the Viability of the
                 Insurance Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17

      Consumer Protection: Assist the FDIC to Protect Consumer
                           Rights and Ensure Community Reinvestment . . . . . . . . .21

      Receivership Management: Help Ensure that the FDIC is Ready to
                               Resolve Failed Banks and Effectively
                               Manages Receiverships . . . . . . . . . . . . . . . . . . . . . .27

      Resources Management: Promote Sound Governance and Effective
                            Stewardship of Financial, Human, Information
                            Technology, and Procurement Resources . . . . . . . . . . .31

      OIG Internal Processes: Continuously Enhance the OIG’s Business
                              and Management Processes . . . . . . . . . . . . . . . . . . . . .39



Cumulative Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .44
Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45
Information Required by the Inspector General Act of 1978, as amended . . . . .47
Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .53

                                                                                                                     v
Highlights and Outcomes




S T R AT E G I C G O A L 1
SUPERVISION: Assist the FDIC to Ensure the Nation’s Banks
             Operate Safely and Soundly

Achieving this goal is largely dependent on investigative success in combating financial
institution fraud, and we made excellent progress in this area. As a result of coopera-
tive efforts with Assistant U.S. Attorneys from around the country, numerous individu-
als were prosecuted for financial institution fraud during the reporting period. Former
Community Bank of Blountsville executives and an excavating contractor received stiff
sentences for conspiracy, bank fraud, and causing false entries in bank records. The
former President of Hawkeye State Bank was sentenced to 65 months’ incarceration
and ordered to pay $3.6 million in restitution for theft, embezzlement, misapplication
by a bank officer, and engaging in monetary transactions in property derived from
unlawful activity. The former director and the former president of the Bank of Alamo,
along with four bank customers, were indicted on charges of conspiracy, money laun-
dering, and bank fraud. Investigations also uncovered that business associates perpe-
trated real-estate fraud schemes involving property flips that impacted an FDIC-super-
vised institution. In another case, a securities broker was also sentenced to 60 months’
probation and 6 months’ home confinement after pleading guilty to obstructing an
examination of a financial institution. Multiple other guilty pleas, indictments, and
sentencings of former bank officers, directors, tellers, contractors, and bank customers
contributed to successful OIG results in this goal area. Ongoing work included an
audit of the FDIC’s procedures for addressing information technology (IT) security
risks at FDIC-supervised financial institutions that offer electronic banking products
and services. (See pages 5–16.)


S T R AT E G I C G O A L 2
INSURANCE: Help the FDIC Maintain the Viability
           of the Insurance Funds
A number of audit assignments focused on helping to maintain the viability of the
insurance funds. We issued a report on the FDIC’s risk-related premium system
                                                                                           1
2                            SEMIANNUAL REPORT TO THE CONGRESS


    leading to the Division of Insurance and Research’s (DIR) considering improvements to the
    assessment system to reflect changes in an institution’s capital level and examination compos-
    ite ratings more frequently than semiannually. DIR planned to present improvements to the
    FDIC Board in conjunction with changes resulting from deposit insurance reform legislation.
    DIR will recommend assessment rates that better reflect differences among FDIC-insured
    institutions and are most likely to keep the insurance fund’s reserve ratio within the range
    contemplated by legislation. Ongoing audit work during the period addressed the accuracy
    of the FDIC’s reserve ratio and assessments determination and the FDIC’s industrial loan
    company deposit insurance application process. (See pages 17–20.)


    S T R AT E G I C G O A L 3
    CONSUMER PROTECTION: Assist the FDIC to Protect Consumer Rights
                         and Ensure Community Reinvestment
    Audits and investigations contributed to the FDIC’s protection of consumers in multiple
    ways. We issued a report on the implementation of the Gramm-Leach-Bliley Act and Fair
    and Accurate Credit Transaction (FACT) Act with recommendations to enhance assurance
    that institutions are taking steps to prevent identity theft to the extent intended by the FACT
    Act and to encourage the FDIC to coordinate with the joint agency rulemaking committee to
    expedite issuance of final rules and regulations for all of the FACT Act’s provisions. To help
    protect consumers, our Electronic Crimes Unit responded to phishing schemes where the
    FDIC and OIG Web sites were misused to entice consumers to divulge personal information.
    We successfully shut down several Web sites used for such purposes during the period. We
    continued to advocate strengthening the FDIC’s enforcement authority to curtail misrepre-
    sentation of FDIC insurance. In that regard, as a result of one of our cases this period, a for-
    eign currency trader pleaded guilty to wire fraud after being indicted for multiple counts of
    wire fraud and two counts of forgery and counterfeiting official seals of the United States,
    including the FDIC logo. Ongoing work included an audit related to the challenges faced
    by the FDIC and the efforts taken to identify, assess, and address risks posed to FDIC institu-
    tions and consumers from predatory lending practices. (See pages 21–26.)


    S T R AT E G I C G O A L 4
    RECEIVERSHIP MANAGEMENT: Help Ensure that the FDIC is Ready to
                             Resolve Failed Banks and Effectively
                             Manages Receiverships
    We reported that with respect to the Corporation’s Board-approved $31.8 million asset serv-
    icing technology enhancement project (ASTEP), the project management team developed
    planning documents and implemented activities that complied with project management
    guidance in line with the status of the project. We recommended that as the project advanced
    and was rebaselined, strengthening project management controls would facilitate decision-
    making and help ensure ASTEP met user needs effectively and efficiently. Other audit work
    determined that the Corporation established and implemented an effective system for track-
    ing and recovering unclaimed deposits. We also achieved investigative results in concealment
    of assets investigations, as evidenced in one successful case where the former Chief Executive
    Officer of Sunbelt Savings Bank was convicted on all 27 counts of an indictment charging
                         SEMIANNUAL REPORT TO THE CONGRESS                                         3


him with mail fraud, false statements, concealment of assets, and money laundering. He was
also subject to more than $2 million in cash forfeitures. We continued coordination with the
Division of Resolutions and Receiverships, the Legal Division, and Department of Justice on
such cases. (See pages 27–30.)


S T R AT E G I C G O A L 5
RESOURCES MANAGEMENT: Promote Sound Governance and Effective
                      Stewardship of Financial, Human, IT, and
                      Procurement Resources
We issued a number of audit reports resulting in positive benefits to the FDIC, for example,
strengthening the Corporation’s privacy program for protecting personal employee informa-
tion; establishing a more effective discrimination complaint resolution process; improving
internal control and contracting approaches to save money and ensure optimum performance
on the FDIC’s consolidated facilities management contract; enhancing wireless security poli-
cies and procedures and restricting access to critical software programs designed to safeguard
wireless communications; and strengthening the FDIC’s certification and accreditation pro-
gram to better secure corporate operations and assets. We continued ongoing work related to
the corporate emergency operations plan, contract administration, and the Federal Informa-
tion Security Management Act. We also continued efforts to ensure employee integrity and
heighten awareness of unacceptable or unethical behavior as evidenced by success in investi-
gating a former FDIC intern’s conspiracy to commit bank fraud and identity theft of FDIC
employees. The former intern was sentenced to 60 months’ imprisonment and ordered to
make restitution of over $630,000. (See pages 31–38.)


S T R AT E G I C G O A L 6
OIG INTERNAL PROCESSES: Continuously Enhance the OIG’s Business and
                        Management Processes
We strengthened our focus on strategically planning OIG work, resulting in issuance of our
fiscal year 2006 Assignment Plan and our 2006 Business Plan, which combines our strategic
plan and performance plan. These plans unify, guide, and integrate OIG activities in pursuit
of our six strategic goals. We began the process of developing performance goals and key
efforts for fiscal years 2007/2008, to continue building on this strategic framework. We pro-
moted effective stakeholder relationships and information-sharing by way of OIG Executive
meetings with FDIC Executives; presentations at FDIC Audit Committee meetings; Con-
gressional interaction; and coordination with financial regulatory OIGs, other members of
the Inspector General community, and the Government Accountability Office. We reviewed
and/or commented on eight proposed corporate policies (e.g., Employee Rights and Respon-
sibilities under the Privacy Act of 1974 and Encryption and Digital Signatures for Electronic
Mail) and two draft legislative documents and regulations. We focused on continuously
enhancing the OIG’s business and management processes by strengthening the OIG’s human
capital practices, taking steps to better ensure the quality of OIG activities and products, and
investing in cost-effective and secure IT to improve performance and productivity.
(See pages 39–43.)
4                           SEMIANNUAL REPORT TO THE CONGRESS



                            SIGNIFICANT OUTCOMES
                                      (October 2005 – March 2006)


    Audit and Evaluation Reports Issued                                               11

    Questioned Costs/Funds Put to Better Use                                 $4.9 million

    Nonmonetary Recommendations                                                       34

    Investigations Opened                                                             26

    Investigations Closed                                                             37

    OIG Subpoenas Issued                                                              17



    JUDICIAL ACTIONS:

         Indictments/Informations                                                     31

         Convictions                                                                  15

    Arrests                                                                           20



    OIG INVESTIGATIONS RESULTED IN:

         Fines of                                                                $73,900

         Restitution of                                                       $9,242,037

         Other Monetary Recoveries                                            $3,496,064

         Total                                                               $12,812,001

    Cases Referred to the Department of Justice (U.S. Attorney)                       30

    Cases Referred to FDIC Management                                                  2

    OIG Cases Conducted Jointly with Other Agencies                                   94

    Hotline Allegations Referred                                                      54

    Proposed Regulations and Legislation Reviewed                                      2

    Proposed FDIC Policies Reviewed                                                    8
    Responses to Requests and Appeals under the Freedom of Information Act             3
S T R AT E G I C G O A L 1
Supervision
Assist the FDIC to Ensure the
Nation’s Banks Operate Safely
and Soundly




Bank supervision is a cornerstone of the FDIC’s efforts to ensure stability and public
confidence in the nation’s financial system. As of March 31, 2006, the FDIC was the
primary federal regulator for 5,245 FDIC-insured, state-chartered institutions that
were not members of the Federal Reserve System (generally referred to as “state non-
member” institutions). Other banks and thrifts are supervised by the Department of
the Treasury (the Office of the Comptroller of the Currency and the Office of Thrift
Supervision) or the Federal Reserve Board depending on the institution’s charter.
While the number of institutions where the FDIC is the primary federal supervisor
showed a steady decline over the past 4 years, the dollar value of assets held by those
institutions showed a steady increase during the same period.
The FDIC performs safety and soundness, information technology (IT), trust, and
other types of specialty examinations of FDIC-supervised insured depository institu-
tions. The majority of the states participate with the FDIC in an examination program
under which certain examinations are performed on an alternating basis by the state
regulators and the FDIC. The examinations are conducted to assess an institution’s
overall financial condition, management practices and policies, and compliance with
applicable laws and regulations. The Corporation also has back-up examination author-
ity to protect the interests of the deposit insurance funds for national banks, state-char-
tered banks that are members of the Federal Reserve System, and savings associations.
The banking industry has taken on added complexity in the past decade, which can
be attributed to the consolidation of the industry, the impact of globalization, and the
development of increasingly complex investment strategies available to banks. This has
led bank regulators, both domestically and internationally, to devise new standards for
bank capital requirements commonly referred to as Basel IA and Basel II. The FDIC
has been engaged with other bank regulators in developing new standards and assessing
the potential impact on bank safety and soundness.
In addition, the FDIC is faced with developing and implementing programs to mini-
mize the extent to which the institutions it supervises are involved in or victims of
financial crimes and other abuse. Bank governance practices are important safeguards
against fraud and other abuses, and the FDIC has issued guidance to banks about gov-
ernance expectations, including adherence to requirements in the Sarbanes-Oxley Act
for publicly traded financial institutions. In its role as supervisor, the FDIC also ana-
                                                                                              5
6                               SEMIANNUAL REPORT TO THE CONGRESS


    lyzes data security threats, occurrences of bank security breaches, and incidents of electronic
    crime that involve financial institutions. As part of safety and soundness examinations, the
    FDIC ensures that the institutions comply with the regulatory reporting requirements of the
    Bank Secrecy Act.
    The FDIC has to facilitate the effective implementation of regulatory reporting requirements
    without imposing any undue regulatory burden. As more and more laws are passed, and new
    regulations are adopted to implement those laws, it is incumbent upon policy makers and
    regulators to ensure that the intended benefits justify the considerable costs. The regulators
    need to take stock periodically of the cumulative effect of all regulatory requirements on the
    industry. Pursuant to the Economic Growth and Regulatory Reduction Act of 1996, the
    FDIC and other bank regulators have been reviewing regulations in order to identify out-
    dated or otherwise unnecessary regulatory requirements imposed on insured depository
    institutions.
    The OIG’s role under this strategic goal is conducting audits and evaluations that review the
    effectiveness of various FDIC programs aimed at providing continued stability to the nation’s
    banks. The OIG also conducts investigations of fraud at FDIC-supervised institutions; fraud
    by bank officers, directors, or other insiders; obstruction of bank examinations; fraud leading
    to the failure of an institution; fraud impacting multiple institutions; and fraud involving
    monetary losses that could significantly impact the institution.
    2006 Performance Goals: To assist the FDIC to ensure the nation’s banks operate safely and
    soundly, the OIG will
         ■   Evaluate the effectiveness of the FDIC’s supervision program, and
         ■   Evaluate and assist FDIC efforts to detect and prevent bank secrecy violations, fraud,
             and financial crimes in FDIC-insured institutions.


    OIG Work in Support of Goal 1
    The OIG’s Office of Investigations is a driving force in combating fraud that occurs at or
    impacts financial institutions. The perpetrators of such crimes can be those very individuals
    entrusted with governance responsibilities at the institutions—directors and bank officers. In
    other cases, individuals providing professional services to the banks, others working inside the
    bank, and customers themselves are principals in fraudulent schemes. Such schemes may
    involve financial institution fraud, mortgage fraud, and obstruction of examinations.
    The following cases from the reporting period are illustrative of the OIG’s success in pursuing
    Strategic Goal 1 during the reporting period.

    Restitution and Incarceration Ordered for Former
    Community Bank Executives and Excavating Contractor
              “Today’s order of restitution is designed to compensate the bank for the harm caused by these
                 defendants. We will take every step possible to recover all available monies for the victim,
                 Community Bank” stated United States Attorney Alice H. Martin. “Justice has prevailed.”

    On January 30, 2006, in the U.S. District Court for the Northern District of Alabama, the
    former chief executive officer (CEO) of Community Bank and the former Community Bank
                          SEMIANNUAL REPORT TO THE CONGRESS                                              7


vice president were ordered to pay a total of $1,776,974 in restitution to Community Bank.
On January 26, 2006, the owner of J&M Materials, an excavating company that provided
contract services to Community Bank, was ordered to pay $238,235 and was sentenced to 21
months’ incarceration. The former vice president was sentenced to 28 months’ incarceration
at that time. The former CEO had been sentenced to 60 months’ incarceration in December
2005.
By way of background, a jury convicted the three defendants on several counts of conspiracy,
bank fraud, and causing false entries in bank records. The former CEO was also convicted of
filing false income tax returns.
The contractor and other subcontractors performed construction services on a 17,000- square
foot house that the former CEO was constructing at Heritage Valley Farms and then submit-
ted invoices to Community Bank for those services. The former vice president approved
those fraudulent invoices and caused Community Bank to pay in excess of $1.9 million to the
contractor and other subcontractors, primarily to fund construction at Heritage Valley Farms.
The scheme also resulted in use of Community Bank funds for construction services at other
locations owned by the former CEO and his family.
             Joint investigation by the FDIC OIG, the Federal Bureau of Investigation (FBI), and the
          Internal Revenue Service Criminal Investigation Division, based on a referral from the Divi-
          sion of Supervision and Consumer Protection (DSC); prosecuted by trial attorneys from the
                                                           Department of Justice, Washington, D.C.

Former President of Hawkeye State Bank Ordered
to Pay $3.6 Million in Restitution
In February 2006, the former president and CEO of Hawkeye State Bank (HSB), Iowa City,
Iowa, was ordered to pay $3,676,651 in restitution by the U.S. District Court for the South-
ern District of Iowa. His restitution order was based on his stipulating to having caused
$4.9 million in losses charged off by HSB. The defendant earlier pleaded guilty to a two-
count information charging him with theft, embezzlement, or misapplication by a bank
officer or employee, and engaging in monetary transactions in property derived from speci-
fied unlawful activity. He was sentenced to 65 months’ incarceration and 5 years’ supervised
release.
Between June 2001 and November 2002, the defendant, who also served as the principal loan
officer and was officer of record for 60 percent of the bank’s loan portfolio, engaged in a series
of illegal transactions involving both legitimate and bogus accounts at HSB. He used unre-
lated customer accounts to meet his personal cash flow needs, shifted funds between accounts
to hide delinquencies, approved loans to unworthy customers, and issued loans to fictitious
entities. The investigation identified 56 separate instances of misapplication of funds totaling
over $11 million. In 20 instances, funds were deposited to accounts held by the defendant
or his wife, or used directly for his personal use. These 20 transactions totaled in excess of
$1 million. Many of the bogus loans were written off by HSB, and both the defendant and
the government agree that the actual loss ranges between $2.4 and $4.9 million. The infor-
mation specifically charged the defendant with depositing a $525,000 cashier’s check from a
fraudulent loan into his personal account and later withdrawing the funds to purchase prop-
erty in Missouri.
                    Joint investigation by the FDIC OIG and the FBI, based on a referral from DSC;
                           prosecuted by the U.S. Attorney’s Office for the Southern District of Iowa.
8                            SEMIANNUAL REPORT TO THE CONGRESS


    Former Director and Former President of Bank of
    Alamo and Bank Customers Indicted on Bank Fraud Charges
    On March 22, 2006, in the U.S. District Court for the District of Tennessee, the former
    director and chairman of the Bank of Alamo, the former president and CEO of the Bank of
    Alamo, and four Bank of Alamo customers were indicted on charges of conspiracy, money
    laundering, and bank fraud. Special Agents from the FDIC OIG and FBI arrested the defen-
    dants a day after the indictment.
    The former bank officials, aided by the bank customers, made and caused to be made false
    and fraudulent statements in the books and records of the bank. These false statements were
    made to cover up loans made to one of the customers in excess of the bank’s legal lending
    limit and to conceal from the FDIC and the state regulators the true financial condition of
    the Bank of Alamo.
    The indictment also alleges that the books and records of the bank reflected that loans from
    the bank were being made to two of the customers when, in fact, the loans were being made
    at the direction, and for the benefit, of another. As further alleged, all of the named defen-
    dants fraudulently obtained loans from a number of other institutions.
    The Bank of Alamo was closed in November 2002 and FDIC was named receiver.
                             Joint investigation by the FDIC OIG and the FBI, with assistance from the
                                    Division of Resolutions and Receiverships (DRR); prosecuted by the
                                             U.S. Attorney’s Office for the Western District of Tennessee.

    Former Senior Vice President and Chief Financial Officer
    Admits Guilt in Hamilton Bank Investigation
    During the reporting period, the former senior vice president of Hamilton Bank (Hamilton),
    who was also the chief financial officer of Hamilton’s holding company, Hamilton Bancorp
    (Bancorp), Miami, Florida, pleaded guilty to one count of securities fraud and one count of
    obstruction of a formal agency proceeding of a second superseding indictment filed on Sep-
    tember 6, 2005.
    As part of his plea agreement, the defendant admitted to disseminating materially false and
    misleading financial information to Fidelity Management and Research Company, Inc.
    (Fidelity) in an effort to induce Fidelity to purchase Bancorp common stock. He also admit-
    ted to making false statements to the Office of the Comptroller of the Currency (OCC) in a
    sworn deposition while the OCC was involved in a formal order of investigation.
    Also in connection with this case, the former Hamilton Bank President earlier pleaded guilty
    to two counts of securities fraud.
                                     Investigation by the FDIC OIG; prosecuted by the U.S. Attorney’s
                                                            Office for the Southern District of Florida.

    Real Estate Frauds
    The increased reliance by both financial institution and non-financial institution lenders on
    third-party brokers has created opportunities for fraud. Some of the rising mortgage fraud
    schemes include “property flipping.” Property flipping is best described as purchasing prop-
                         SEMIANNUAL REPORT TO THE CONGRESS                                               9


erties and artificially inflating their value through false appraisals. The artificially valued
properties are then repurchased several times for a higher price by associates of the “flipper.”
Often flipped properties are ultimately repurchased for 50-100 percent of their original value.
These schemes victimize lenders as well as borrowers who are tricked into taking on loans that
they would not qualify for otherwise on properties that are appraised over their value. Several
investigations during the reporting period addressed fraudulent real estate schemes, as dis-
cussed below.

THREE INDICTED AND ARRESTED IN MORTGAGE FRAUD SCHEME
On March 7, 2006, a federal grand jury in the U.S. District Court for the Northern District
of Texas returned a 14-count indictment against three business associates from Dallas, Texas.
The grand jury charged one of the defendants with one count of bank fraud, seven counts
of wire fraud, and six counts of engaging in monetary transactions derived from specified
unlawful activity. A second defendant was charged with one count of bank fraud and six
counts of wire fraud. The third was charged with one count of wire fraud. Following the
indictment, arrest warrants were issued and agents from the FDIC OIG and the FBI arrested
two of the defendants on March 9, 2006. The third defendant self-surrendered on March 10,
2006.
The indictment alleges that the three associates devised a scheme to fraudulently obtain 21
mortgage loans totaling $3,220,550. The defendants used schemes commonly referred to in
the mortgage industry as property flips, markups and kickbacks, and HUD swaps to facilitate
the mortgage fraud. One of the mortgage companies impacted by this fraud scheme was Fre-
mont Investment & Loan, an FDIC-supervised institution in Brea, California.
In each instance, one of the defendants convinced inexperienced real estate investors to stand
in as straw borrowers and purchase the properties for fraudulently inflated sales prices. A sec-
ond defendant, a loan officer, and the third, a mortgage broker, knowingly submitted false
documentation to the lenders to enable the straw borrowers to qualify for the mortgage loans.
Each of the straw borrowers received a financial inducement for participating in the fraud
scheme. Fraudulent real estate appraisals were also submitted to the lenders to support the
inflated sales prices of the properties.
                               Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                            U.S. Attorney’s Office for the Northern District of Texas.

CO-DEFENDANT PLEADS GUILTY TO BANK FRAUD IN $2.16 MILLION REAL ESTATE FRAUD
On January 13, 2006, in the U.S. District Court for the Northern District of Texas, a busi-
nessman pleaded guilty to count two of an earlier indictment charging him with bank fraud
and aiding and abetting. He admitted to defrauding Fremont Investment & Loan by causing
a co-defendant to submit falsified loan documents to the institution in connection with a
$287,777 loan.
As reported previously, the defendant and three others were indicted on September 7, 2005,
in the U.S. District Court for the Northern District of Texas on seven counts of bank fraud,
mail fraud, wire fraud, and conspiracy.
According to the indictment, from December 2002 through March 2004, the four men
engaged in a real estate scheme to defraud various real estate lenders, buyers, and sellers,
including Fremont Investment & Loan. Three of the defendants located single family resi-
10                            SEMIANNUAL REPORT TO THE CONGRESS


     dences and recruited straw purchasers and borrowers to purchase and finance the residences.
     Fraudulent loan documents were then submitted to the lenders in the name of the straw
     borrowers falsely indicating the down payment for the loans had been made by the borrowers.
     One of the defendants, as an employee of the title company, would release the loan proceeds
     early to the three others, who would then purchase cashier’s checks in the name of the straw
     borrowers for the requisite down payment. They all caused inflated loan amounts to be
     funded by mortgage lenders and financial institutions, and conspired to distribute the fraudu-
     lently obtained loan proceeds among themselves and others. Three of the defendants also
     executed contracts between their company, Better Homes of Dallas, and the straw borrowers,
     stating the company would be responsible for the loans, but they later failed to fulfill their
     contract.
                                    Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                 U.S. Attorney’s Office for the Northern District of Texas.

     Other Successful Investigative Outcomes
     GUILTY PLEAS IN THE FAILURE OF UNIVERSAL FEDERAL SAVINGS BANK
     On March 16, 2006, in the U.S. District Court for the Northern District of Illinois, Univer-
     sal Federal Savings Bank’s (Universal) former chief operations officer (COO) pleaded guilty
     to one count of bank fraud. Her brother, a certified public accountant and principal in a
     now-defunct business, earlier pleaded guilty to aiding and abetting a false entry in the books
     of a bank. The guilty pleas are the result of an indictment filed in January 2005 concerning
     the activities surrounding the failure of Universal, a Chicago, Illinois, bank on June 27, 2002.
     As previously reported, the indictment alleged that a Universal customer conspired with Uni-
     versal’s COO to misapply the financial institution’s funds and to make a false entry in a book,
     report, or statement of or to Universal.
     The bank customer wrote insufficient funds checks (NSF checks) and deposited those NSF
     checks in Universal’s correspondent account at ANB. After receiving immediate credit and
     availability of those funds, he withdrew some or all of the funds, and then covered the previ-
     ous NSF checks plus the withdrawn funds by depositing even larger amounts of NSF checks.
     This cycle continued almost daily for more than 6 months. During the conspiracy, the bank
     customer made approximately 138 deposits at ANB that included NSF checks totaling more
     than $200 million.
     Universal’s Chairman of the Board of Directors requested a review of the bank customer’s
     account activity and directed the former COO to provide copies of the fronts and backs of
     checks. In order to conceal the check-kiting scheme, the former COO and the bank cus-
     tomer agreed that the bank customer would alter the checks. The bank customer and the for-
     mer COO’s brother, a certified public accountant and authorized signer on the account with
     the customer, falsified the backs of the account checks to conceal that they were deposited
     into Universal’s correspondent account at ANB. On or about June 20, 2002, the former
     COO knowingly provided the falsified check copies to the Chairman in furtherance of the
     conspiracy. About one week later, the check-kiting scheme was discovered and stopped. The
     scheme and conspiracy caused a loss in excess of $10 million, and Universal was forced to
     cease operations.
                                    Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                               U.S. Attorney’s Office for the Northern District of Illinois.
                          SEMIANNUAL REPORT TO THE CONGRESS                                                11


FORMER VICE PRESIDENT OF REPUBLIC BANK PLEADS GUILTY TO BANK FRAUD AND
WIRE FRAUD
On March 27, 2006, the former vice president and loan officer of Republic Bank, Duluth,
Minnesota, pleaded guilty to a two-count information charging him with one count of bank
fraud and one count of wire fraud.
The information charged that the former vice president and loan officer originated a
$120,000 nominee loan in his father-in-law’s name by compiling a loan package that
included false financial and personal information about his father-in-law without his father-
in-law’s knowledge. The defendant then presented the loan package to Republic Bank offi-
cials for loan approval and personally received all of the proceeds of the nominee loan.
The information further charged that the defendant committed wire fraud. He did so by
inducing a widow to obtain a mortgage loan from Republic Bank with the promise that he
would invest the proceeds of the mortgage in a safe investment that would provide her with
a monthly income of over $900.
                    Joint investigation by the FDIC OIG and the FBI, based on a referral from DSC;
                               prosecuted by the U.S. Attorney’s Office for the District of Minnesota.

FORMER PRESIDENT OF MAURICEVILLE NATIONAL BANK PLEADS GUILTY TO BANK FRAUD
On March 22, 2006, the former president of Mauriceville National Bank (MNB), Mau-
riceville, Texas, entered a guilty plea in the U.S. District Court for the Eastern District of
Texas to a one-count information charging her with misapplication of funds.
This investigation was initiated in May 2002 based on information initially reported in a
Division of Resolutions and Receiverships (DRR) Failing Bank Report for the Chairman.
The investigation revealed a $3.5 million check-kiting scheme perpetrated by a customer of
the MNB, who was assisted by the former bank president, resulting in the near failure and
subsequent sale of the bank.
On April 15, 2004, the customer pleaded guilty to a one-count information charging him
with bank fraud. He was sentenced to 33 months’ incarceration and ordered to pay
$3,374,256 in restitution to MNB for his involvement in the check-kiting scheme.
                                Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                               U.S. Attorney’s Office for the Eastern District of Texas.

FORMER OFFICER OF FALCON INTERNATIONAL BANK PLEADS GUILTY TO BANK FRAUD
On November 8, 2005, a former assistant vice president in the accounting department of Fal-
con International Bank, Laredo, Texas, pleaded guilty in the U.S. District Court for the
Southern District of Texas to a one-count information charging her with embezzlement/mis-
application by a bank officer.
The investigation revealed that the defendant made false entries into the bank’s electronic
accounting system and debited funds from six of the bank’s general ledger accounts. She then
credited those funds to either her personal bank account or to bank accounts of friends and
family members. She also coded the false entries as reversal of service charges in an attempt
to disguise the illicit nature of the transactions. The investigation determined that the defen-
dant began making false entries on or about February 13, 2003, and she continued her
12                            SEMIANNUAL REPORT TO THE CONGRESS


     scheme through on or about December 3, 2004, resulting in approximately $106,768 in
     losses to the bank.
     As part of the former assistant vice president’s plea agreement, she stipulated to an action
     under Section 8(e) of the Federal Deposit Insurance Act, which provides for a lifetime ban
     from banking.
                                    Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                 U.S. Attorney’s Office for the Southern District of Texas.

     BANK CUSTOMER PLEADS GUILTY TO CONSPIRACY TO COMMIT BANK FRAUD
     On November 30, 2005, a bank customer of the Bank of the Panhandle (BOP), Guymon,
     Oklahoma, and Production Credit Association (PCA) of Woodward, Oklahoma, now Farm
     Credit Western, pleaded guilty in the U.S. District Court for the Western District of Okla-
     homa to an information filed on November 9, 2005, charging him with one count of con-
     spiracy to commit bank fraud.
     The information alleged that from June 2000 and continuing through November 2002, the
     bank customer and an unindicted co-conspirator devised a scheme and fraudulently obtained
     three loans from PCA totaling $2,389,370 for the purchase of cattle. The information fur-
     ther alleged that the bank customer and the unindicted co-conspirator fraudulently obtained
     three loans from BOP totaling $642,655, in their names and through Gum Land & Cattle
     Co., Inc., to purchase Guymon Livestock Auction and to purchase cattle. The bank customer
     represented to PCA and BOP that the loan proceeds were being used to purchase cattle,
     although the proceeds were used for his own benefit and for the benefit of his businesses.
     To make it appear to PCA and BOP that he was buying and selling cattle, the bank customer
     and the unindicted co-conspirator held auctions at Guymon Livestock Auction, created ficti-
     tious buyer and seller invoices, and prepared checks to fictitious companies.
     As a part of the bank customer’s plea agreement, he agreed to pay PCA $2,361,245 and BOP
     $366,930 in restitution.
                Joint investigation by the FDIC OIG, U.S. Department of Agriculture OIG, and the FBI;
                           prosecuted by the U.S. Attorney’s Office for the Western District of Oklahoma.

     FORMER EXECUTIVE VICE PRESIDENT OF IOWA-NEBRASKA STATE BANK FOUND GUILTY
     On March 31, 2006, the former executive vice president of Iowa-Nebraska State Bank, South
     Sioux City, Nebraska, was found guilty in the U.S. District Court for the Northern District
     of Iowa, of making false entries in bank records. He was acquitted on charges that he person-
     ally benefited from the illegal transaction.
     On April 23, 2003, the former executive vice president was indicted on charges that he know-
     ingly made false entries into the records of Iowa-Nebraska State Bank. As a loan officer, the
     defendant originated an unsecured loan for $125,000 to a bank customer and falsely stated
     that the purpose of the loan was for “operating expenses” and “for the purchase (down pay-
     ment) of video lottery machines” when in fact he knew that the borrower was going to trans-
     fer the loan proceeds back to him. The indictment also alleged that the former executive vice
     president used the proceeds of the loan for his personal benefit, including paying off his two
     daughters’ car loans.
                        Joint investigation by the FDIC OIG and the FBI, based on a referral from DSC;
                               prosecuted by the U.S. Attorney’s Office for the Northern District of Iowa.
                          SEMIANNUAL REPORT TO THE CONGRESS                                              13


FORMER PRESIDENT OF GARNAVILLO SAVINGS BANK SENTENCED IN BANK FRAUD SCHEME
On January 27, 2006, the former president of Garnavillo Savings Bank, Garnavillo, Iowa, was
sentenced in the U.S. District Court for the Northern District of Iowa, to 21 months’ incar-
ceration, to be followed by 3 years’ supervised release. He was also ordered to pay restitution
in the amount of $157,000 to Garnavillo Savings Bank. His sentence resulted from an earlier
guilty plea to a one-count information charging him with bank fraud.
The former bank president admitted to executing a scheme between 1996 and 2003 to
embezzle funds of more than $157,000 from Garnavillo Savings Bank. Also, as part of his
plea agreement, he stipulated to an action under 8(e) of the Federal Deposit Insurance Act,
which provides for a lifetime ban from banking.
The OIG coordinated with the FDIC Legal Division regarding the order banning the former
president from banking. The OIG coordinated with the FDIC Legal Division regarding the
order banning the former bank president from banking.
        Joint investigation by the FDIC OIG and the FBI, based on a referral from DSC; prosecuted
                                      by the U.S. Attorney’s Office for the Northern District of Iowa.

FORMER BANK OFFICER SENTENCED FOR BANK FRAUD
On February 15, 2006, the former assistant vice president of Citizens Bank, Farmington,
New Mexico, was sentenced in the District of New Mexico. She had earlier pleaded guilty
to a one-count information charging her with bank fraud, and was sentenced to 15 months’
imprisonment to be followed by 60 months’ of supervised release. She was also ordered to
pay $667,658 in restitution ($25,000 to Citizens Banks and $642,658 to the bank’s insurance
bonding company). The defendant previously stipulated to an action under 8(e) of the Fed-
eral Deposit Insurance Act, which provides for a lifetime ban from banking.
The defendant admitted to submitting fraudulent debit and credit tickets, which caused
funds to be credited to an inactive customer bank account. After the inactive account was
credited with the funds, the defendant transferred the funds into her personal bank accounts.
She continued her scheme by requesting cash from bank tellers and then submitting fraudu-
lent debit and credit tickets to cover up and balance the transactions. This scheme continued
through November 14, 2003, resulting in approximately $667,658 being fraudulently
obtained from Citizens Bank.
                                Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                U.S. Attorney’s Office for the District of New Mexico.

FORMER VICE PRESIDENT OF BANK OF SIERRA BLANCA SENTENCED
On February 2, 2006, the former vice president of Bank of Sierra Blanca (BSB), Sierra
Blanca, Texas, was sentenced in the U.S. District Court for the Western District of Texas.
She earlier pleaded guilty to one count of bank fraud and two counts of misapplication by
a bank officer, and was sentenced to 46 months’ incarceration, 5 years’ of supervised release,
and ordered to pay restitution in the amount of $884,473 to the FDIC.
By way of background, on January 18, 2002, BSB was closed and the receiving bank, Security
State Bank of Pecos, was renamed TransPecos Sierra Blanca Bank. As detailed in the indict-
ment, from in or about 1995 until November 2001, the former vice president devised a
scheme to fraudulently obtain money, funds, credits, assets, securities and other property
owned by and under the control of BSB. The defendant admitted to abusing her position of
14                              SEMIANNUAL REPORT TO THE CONGRESS


     trust within the bank by lying to bank personnel and customers, making false entries in bank
     records, and stealing bank money and credit. The defendant also admitted to concealing her
     activities by making false entries in the bank’s accounting system, creating a fictitious account
     under her control, and misapplying additional money and credit from other accounts of the
     bank and using those funds to replenish accounts victimized by previous thefts.
                      Joint investigation by the FDIC OIG and the FBI, based on information from DRR;
                                  prosecuted by the U.S. Attorney’s Office for the Western District of Texas.

     FORMER STATE OF MINNESOTA REPRESENTATIVE SENTENCED FOR FRAUD
     On March 21, 2006, a former State of Minnesota Representative was sentenced in the U.S.
     District Court for the District of Minnesota to 48 months of incarceration. He was also
     ordered to pay $284,398 in restitution to Minnesota conservation funds and forfeit $248,398
     to the U.S. government. The former representative was found guilty on two counts of mail
     fraud and one count of money laundering after a 2-week trial in July 2005.
     The defendant served in the Minnesota House of Representatives from 1985 to 2002. Dur-
     ing his tenure, he served as the chairman of the House Regulated Industries Committee,
     which oversaw legislation regarding utility companies. The defendant used his position to
     enact legislation permitting utility companies to use energy conservation funds for research
     and development projects. Once the legislation was enacted, he used his position to coerce
     the utility companies to pay $650,000 in grants to Northern Pole, a Minnesota corporation
     created to recycle old utility poles. The defendant had a significant equity stake in Northern
     Pole.
     The former representative had a personal and business relationship with the former president
     of Town & Country (T&C) Bank of Almelund. The defendant met the former president
     as a borrower of the bank and developed a personal relationship when the former president
     worked on the defendant’s various election campaigns for public office. T&C Bank failed in
     July 2000, at which time the FDIC was appointed receiver. The bank’s failure resulted in an
     estimated loss of $3.4 million to the Bank Insurance Fund (BIF).
     The defendant and the former president of T&C Bank devised a scheme whereby the former
     representative would invest in Northern Pole, a troubled creditor of T&C Bank. The scheme
     involved borrowing money from T&C Bank in the name of the defendant’s other businesses,
     diverting those funds to Northern Pole and other troubled creditors of the bank, and using
     State of Minnesota grant money to pay back the defendant’s debt service on the loans.
     The former president of T&C Bank pleaded guilty in September 2003 to charges of bank
     fraud, money laundering, false bank entries, and conspiracy for his role in the fraud that led
     to T&C Bank’s failure. He has been cooperating in the investigation, and has not yet been
     sentenced.
                Joint investigation by the FDIC OIG, the FBI, and the Internal Revenue Service–Criminal
             Investigation Division; prosecuted by the U.S. Attorney’s Office for the District of Minnesota.



     BANK BORROWER SENTENCED FOR BANK FRAUD
     On October 3, 2005, a borrower at the State Bank of Belle Plaine, Belle Plaine, Minnesota,
     was sentenced in the District of Minnesota. She was sentenced to 5 months of community
                          SEMIANNUAL REPORT TO THE CONGRESS                                              15


confinement and 5 months of home detention, both with work release privileges. She was
also sentenced to 5 years’ supervised release and ordered to pay $107,614 in restitution to
the State Bank of Belle Plaine. Her sentence was the result of her guilty plea to one count of
bank fraud.
The defendant and her husband ran a family-owned trucking business. The business partici-
pated in the accounts receivable purchase loan program with the State Bank of Belle Plaine.
The bank would advance funds based on the trucking company’s accounts receivable. From
December 2001 until about March 2003, the defendant created and submitted fraudulent
invoices causing the bank to advance funds. The bank advanced over $107,600 on false
invoices. The defendant said she used the funds to keep the company operating.
                      Joint investigation conducted by the FDIC OIG, FBI, and U.S. Secret Service;
                               prosecuted by the U.S. Attorney’s Office for the District of Minnesota.

FORMER VICE PRESIDENT OF COLONY BANK AND FIVE DEFENDANTS ARRAIGNED ON
BANK FRAUD CHARGES
On January 25, 2006, the former senior vice president and loan officer of Colony Bank,
Fitzgerald, Georgia, and four co-conspirators were arraigned on bank fraud charges in the
Middle District of Georgia. The defendants were arrested on January 5, 2006, by Special
Agents of the FDIC OIG and the FBI. The arrests were the result of a 13-count indictment
charging the defendants with bank fraud and conspiracy to commit fraud.
The indictment alleges that the defendants conspired to defraud Colony Bank by filing false
statements on loan applications, and they also diverted the loan proceeds to benefit two of
the defendants involved. The indictment further alleges that one of the defendants, in his
capacity as loan officer, originated over $2.3 million in fraudulent loans to his two brothers.
            Joint investigation by the FDIC OIG and the FBI, based on information provided by the
          Legal Division; prosecuted by the U.S. Attorney’s Office for the Middle District of Georgia.

Obstruction of Bank Examinations
The examination of the banks that it regulates is a core FDIC function. Through this
process, the FDIC assesses the adequacy of management and internal control systems to
identify, measure, and control risks; and bank examiners judge the safety and soundness of a
bank’s operations. The intentional denial of accurate information to bank examiners under-
mines the integrity of this process. The OIG defends the vitality of the FDIC’s examination
program by investigating allegations of criminal obstruction of bank examinations and by
working with U.S. Attorneys’ Offices to bring these cases to justice. The following investiga-
tive case from the reporting period illustrates our efforts in obstruction of examination cases,
in this instance, in connection with an examination conducted by the Office of Thrift Super-
vision (OTS).



BROKER SENTENCED IN OBSTRUCTION CASE
A San Clemente Securities, Inc. (SCS) broker was sentenced in the Northern District of Texas
to 60 months’ probation, and 6 months’ home confinement. He was also fined $10,000. His
sentence resulted from his earlier guilty plea to aiding and abetting the obstruction of an
examination of a financial institution.
16                            SEMIANNUAL REPORT TO THE CONGRESS


     During July and August 1998, the OTS conducted an examination of Terrell Federal Savings
     and Loan (name later changed to Heritage). During the examination, the former president of
     Heritage was asked by OTS to confirm liquidation values of the nine zero-coupon certificates
     of deposit he had purchased from the defendant through SCS. The defendant prepared a
     spread-sheet purporting to represent present liquidation values for the certificates of deposit.
     He admitted he knew the values represented on the spread-sheet did not disclose or reflect
     the amounts of premiums that had been deducted by SCS from the amounts paid for the
     assets by Heritage. The defendant was aware that the former president of Heritage intended
     to communicate the stated values he was provided to the OTS.
                                   Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                 U.S. Attorney’s Office for the Northern District of Texas.

     Ongoing Audit Work
     An ongoing audit in the supervision area is determining whether the FDIC has established
     and implemented adequate procedures for addressing IT security risks at FDIC-supervised
     financial institutions that offer electronic banking products and services.
S T R AT E G I C G O A L 2
Insurance
Help the FDIC Maintain the Viability
of the Insurance Funds




FDIC deposit insurance remains a central component of the federal government’s
assurance to the public that it can be confident in the stability of the Nation’s banks
and savings associations. Since its establishment in 1933, the FDIC has insured
deposits up to the legally authorized threshold, which presently stands at $100,000.
For almost two decades following bank crises in the late-1980s and early 1990s, the
FDIC managed two deposit insurance funds—one for banks and one for savings and
loans. These funds, which are primarily an accumulation of premiums that insured
depository institutions have paid the FDIC and interest earned, have been used to
pay FDIC operating expenses and insured depositors, as necessary.
Legislation passed by the Congress on February 1, 2006, has changed how the FDIC
manages deposit insurance. The legislation:
     ■   Merges the Bank Insurance Fund (BIF) and the Savings Association Insurance
         Fund (SAIF) into a single Deposit Insurance Fund.
     ■   Maintains deposit insurance coverage for individual accounts at $100,000, but
         provides for indexing for inflation every 5 years beginning in 2011.
     ■   Increases deposit insurance coverage for retirement accounts to $250,000 and
         provides for indexing for inflation every 5 years beginning in 2011.
     ■   Replaces the current Designated Reserve Ratio of 1.25 percent of estimated
         insured deposits by permitting the reserve ratio to move within a range of
         1.15 percent to 1.50 percent of estimated insured deposits.
     ■   Generally requires the FDIC to provide cash rebates in amount equaling
         50 percent of the amount in excess of the amount required to maintain the
         reserve ratio at 1.35 percent. Requires the FDIC to provide cash rebates in
         amount equaling the total amount in excess of the amount required to main-
         tain the reserve ratio at 1.50 percent.
     ■   Provides financial institutions with a one-time transitional premium assessment
         credit based on the assessment base of the institution on December 31, 1996,
         as compared to the combined aggregate assessment base of all eligible deposi-
         tory institutions.
                                                                                           17
18                             SEMIANNUAL REPORT TO THE CONGRESS


     The Corporation is now working to implement the provisions of the new legislation.
     As insurer, the FDIC must also evaluate and effectively manage how changes in the economy,
     the financial markets, and the banking system affect the adequacy and the viability of the
     deposit insurance funds. Financial instruments and transactions continue to become more
     complex, and the process of financial intermediation, even in smaller institutions, increas-
     ingly sophisticated. Further, the ongoing consolidation of the banking industry means that
     there are a few very large institutions that represent an increasingly significant share of the
     FDIC’s exposure. According to the Corporation, as of September 30, 2005, the ten largest
     FDIC-insured institutions accounted for 42 percent of deposits and 43 percent of the assets
     of all FDIC-insured institutions.
     The OIG has a responsibility to evaluate the FDIC’s programs and operations to ensure that
     the agency has adequate information to gauge the risks inherent as financial institutions con-
     solidate, enter into new business areas, and become more global.
     2006 Performance Goals: In support of the overall strategic goal, to help the FDIC main-
     tain the viability of the insurance funds, the OIG will
          ■   Evaluate corporate programs to identify and manage risks in the banking industry
              that can cause losses to the funds, and
          ■   Assess the management of the deposit insurance funds.


     OIG Work in Support of Goal 2
     The OIG’s Office of Audits issued one report and had two significant audits ongoing in the
     insurance area as of the end of the reporting period, as discussed below:

     Consideration of Safety and Soundness Examination
     Results and Other Relevant Information in the FDIC’s
     Risk-Related Premium System
     To assess deposit insurance premiums on financial institutions, the FDIC uses the Risk-
     Related Premium System (RRPS). The FDIC places each institution into one of nine assess-
     ment risk classifications using a two-step process based first on capital ratios (the Capital
     Group assignment) and then on safety and soundness examination results and other pertinent
     information (the Supervisory Subgroup assignment).
     We conducted an audit during the reporting period and found that the RRPS-assigned Super-
     visory Subgroups are adequately tied to the results of examinations by the primary federal
     regulators and to other information relevant to the institutions’ financial condition. The
     FDIC adequately reviewed the appropriateness of the Supervisory Subgroups assigned by
     the RRPS and maintained adequate support for its decisions.
     Capital Group assignments, however, are based solely on an institution’s financial reports
     unless an institution appeals its assessment. An institution with a poor safety and soundness
     capital component rating can be assigned by the RRPS to the best Capital Group if it meets
     the definition of well capitalized in its financial reports as of the cutoff date for the assess-
     ment period.
     We also found that the FDIC had performed analyses related to various aspects of deposit
     insurance, but had not updated its analysis supporting the basis points used to calculate pre-
                          SEMIANNUAL REPORT TO THE CONGRESS                                           19


miums and assigned to the assessment risk
classifications in the RRPS matrix. The
FDIC’s analysis was limited to bank fail-
ures from 1988 to 1992 and did not
include thrift failures due to significant
changes in the supervision of the thrift
industry. Since that time, the banking and
supervisory environment has changed sig-
nificantly, including the establishment of
Prompt Corrective Action requirements.
Consequently, the assessment rates for the
deposit insurance funds may not be repre-
sentative of trends based on more recent
institution failures.
We recommended that the FDIC pursue
regulatory and procedural revisions to per-
mit Capital Group adjustments when capi-
tal is impaired. The FDIC partially
concurred with the recommendation and
is considering improvements to the assess-
ment system that would reflect changes in
an institution’s capital levels and CAMELS
composite ratings more frequently than
semiannually.
However, a change to the assessment regulations may still be warranted that would provide
the FDIC with the discretion to reclassify an institution’s Capital Group for RRPS purposes
when capital is considered impaired. We highlighted this matter for the FDIC Board of
Directors’ consideration as it implements changes to the assessment system pursuant to
deposit insurance reform legislation.
The report also recommended that the FDIC update the analysis supporting the basis points
in the assessment rate matrix, present the updated analysis to the FDIC Board with recom-
mendations for assessment rates, and establish a schedule for periodically updating the assess-
ment rate analysis. The FDIC concurred with these recommendations.

Ongoing Work
THE FDIC RESERVE RATIO AND ASSESSMENT DETERMINATIONS
Historically, the FDIC maintained the BIF and SAIF by assessing institutions a semiannual
premium based on the institution’s insured deposit amount and the degree of risk that the
institution posed to its respective insurance fund. The Federal Deposit Insurance Act (Act)
required the FDIC Board of Directors to set assessments only to the extent necessary to main-
tain the insurance funds at the designated reserve ratio of 1.25 percent of estimated insured
deposits.
At the end of the reporting period, we had an audit ongoing to determine whether: (1) the
Division of Insurance and Research accurately determines the funds’ reserve ratios and (2) the
Division of Finance has adequate controls in place to ensure that the FDIC accurately calcu-
lates, collects, and processes assessments of financial institutions. We will report the results of
this work in our upcoming semiannual report.
20                           SEMIANNUAL REPORT TO THE CONGRESS


     THE FDIC’S INDUSTRIAL LOAN COMPANY DEPOSIT INSURANCE APPLICATION PROCESS
     Industrial Loan Companies (ILC) are FDIC-supervised depository institutions. ILCs are
     unique because they may be owned by commercial firms, and ILCs’ parent companies are not
     subject to consolidated regulatory supervision. As of September 2005, there were 59 ILCs
     with total assets of $141 billion.
     We have an ongoing assignment that is evaluating the FDIC’s process for (1) reviewing,
     investigating, and approving ILC applications for deposit insurance and (2) monitoring busi-
     ness operations to ensure adherence to conditions imposed on ILCs and their business plans.
     Results of that work will be presented in our next semiannual report.
S T R AT E G I C G O A L 3
Consumer Protection
Assist the FDIC to Protect Consumer
Rights and Ensure Community
Reinvestment




The U.S. Congress has long advocated particular protections for consumers in relation-
ships with banks. Federal fair lending and consumer protection laws, such as the Fair
Housing Act, the Equal Credit Opportunity Act, Gramm-Leach-Bliley Act, the Fair
Credit Reporting Act (FCRA) as amended by the Fair and Accurate Credit Transaction
Act of 2003 (FACT Act), the Truth in Lending Act as amended by the Home Owner-
ship and Equity Protection Act, and the Real Estate Settlement Procedures Act provide
substantive protection to borrowers. These laws provide disclosure requirements,
define high-cost loans, and contain anti-discrimination provisions. To help monitor
the home lending market, the Federal Reserve and other bank regulators, such as the
FDIC, collect and monitor loan data in accordance with the Home Mortgage Disclo-
sure Act. Obtaining the data enables bank regulators, including the FDIC, to conduct
efficient fair lending reviews and to make sure banks are providing equal access and
pricing for loans regardless of a borrower’s racial or ethnic background or the bor-
rower’s gender. The Congress has also enacted the Community Reinvestment Act
(CRA) of 1977 to encourage federally insured banks and thrifts to help meet the credit
needs of their entire community, including low- and moderate-income neighborhoods,
consistent with safe and sound operations. The CRA requires federal bank regulators
to assess each insured institution’s record of meeting these needs.
The FDIC oversees statutory and regulatory requirements aimed at protecting con-
sumers from unfair and unscrupulous banking practices. The FDIC carries out its role
by (1) providing consumers with access to information about their rights and disclo-
sures that are required by federal laws and regulations and (2) examining the banks
where the FDIC is the primary federal regulator to determine their compliance with
laws and regulations governing consumer protection, fair lending, and community
investment. A principal effort at consumer education has been the FDIC’s Money
Smart program that aims to provide basic financial education skills to current and
potential bank customers, often through alliances with government, charitable, and
community development organizations.
The FDIC’s bank examiners conduct examinations in FDIC-supervised banks on a
scheduled basis to determine the institutions’ compliance with laws and regulations
governing consumer protection, fair lending, and community investment. When prob-
lem institutions are identified, primarily through the examination process, the FDIC
                                                                                         21
22                             SEMIANNUAL REPORT TO THE CONGRESS


     attempts using reason and moral suasion to bring about corrective actions; however, the Cor-
     poration possesses broad enforcement powers to correct situations that threaten an institu-
     tion’s compliance with applicable laws.
     The OIG’s role under this strategic goal is to review the effectiveness of various FDIC pro-
     grams aimed at protecting consumers, fair lending, and community investment. Addition-
     ally, the OIG’s investigative authorities are used to identify, target, disrupt, and dismantle
     criminal organizations and individual operations engaged in fraud schemes that target our
     financial institutions or that prey on the banking public.
     2006 Performance Goals: To assist the FDIC to protect consumer rights and ensure com-
     munity reinvestment, the OIG will
          ■   Evaluate the effectiveness of FDIC programs for protecting consumer privacy,
          ■   Review FDIC’s fair lending and community reinvestment examination programs, and
          ■   Strengthen enforcement against misrepresentations of deposit insurance coverage.


     OIG Work in Support of Goal 3
     Several audits completed and ongoing during the reporting period addressed important con-
     sumer protection matters. Investigative work related to protection of personal information
     and misrepresentation of deposit insurance complemented audit efforts in this strategic goal
     area, as described below.

     Guidance to Institutions and Examiners for Implementing
     GLBA Title V and the FACT Act
     The privacy and security of consumer information in financial institutions is regulated by
     Title V of the Gramm-Leach-Bliley Act of 1999 (GLBA), the FACT Act, and the FCRA. The
     FACT Act made many substantive amendments to the FCRA and covers, for example, iden-
     tity theft, consumers’ access to credit information, enhanced consumer report accuracy, and
     financial literacy. The statutes prescribe financial institutions’ responsibilities for protecting
     consumer information and sharing it with other entities.
     In an audit conducted during the period, we concluded that the FDIC has established rules
     and regulations and issued adequate guidance to institutions and examiners for implementing
     the GLBA Title V provisions related to the privacy and security of consumer information. In
     contrast, some FACT Act provisions were still lacking rules and regulations.
     Ten FACT Act provisions require compliance by FDIC-supervised institutions and rulemak-
     ing by the federal banking agencies, National Credit Union Administration (NCUA), or Fed-
     eral Trade Commission. The FDIC, jointly or in coordination with the other federal banking
     agencies and NCUA, had completed the rulemaking process for two of the seven FACT Act
     provisions that require FDIC rulemaking. The Federal Trade Commission had completed
     rules and regulations for the three provisions for which it has rulemaking responsibility. The
     FACT Act did not designate a lead agency for the five remaining provisions requiring rules
     and regulations.
     The lack of final rules and regulations could limit the effectiveness of the FACT Act and
     reduce assurance that institutions are taking steps to prevent identity theft to the extent
                          SEMIANNUAL REPORT TO THE CONGRESS                                          23


intended by the Act. However, to some degree, the FDIC has mitigated that risk by issuing
interim financial institution and examination guidance addressing all of the provisions that
require such guidance.
We recommended that the FDIC finalize the interim examination guidance that addresses
FACT Act provisions and develop, in coordination with the joint-agency rulemaking com-
mittee, a more aggressive project management plan to expedite the issuance of final rules and
regulations for all FACT Act provisions. The FDIC concurred with the recommendations
and stated that it is fully committed to, and was in the process of, developing and issuing
financial institution and examination guidance.

Ongoing Work in the Consumer Protection Area
As of the end of the reporting period, we were finalizing an audit related to predatory lend-
ing. Such lending typically involves imposing unfair and abusive loan terms on borrowers,
and statistics show that borrowers lose more than $25 billion annually due to predatory prac-
tices. Predatory lending can be detrimental to consumers and increases the financial and rep-
utational risk for financial institutions. Characteristics potentially associated with predatory
lending include, but are not limited to, (1) abusive collection practices, (2) balloon payments
with unrealistic repayment terms, (3) equity stripping associated with repeat refinancing and
excessive fees, and (4) excessive interest rates that may involve steering a borrower to a higher-
cost loan.
The objective of our audit was to determine the challenges faced and the efforts taken by the
FDIC to identify, assess, and address the risks posed to FDIC-supervised financial institu-
tions and consumers from predatory lending practices. We also gained an understanding of
the steps taken by the other federal banking regulators to address predatory lending. We will
report the results of our work in our next semiannual report to the Congress.
Four additional assignments were ongoing to address the following:
     ■   Examination coverage of third-party servicers’ protection of confidential information,
     ■   DRR’s protection of personal information collected and maintained from resolution
         and receivership functions,
     ■   Whether the FDIC adequately addresses compliance violations reported in examina-
         tions to ensure FDIC-supervised institutions take appropriate corrective action, and
     ■   Examiner use of Home Mortgage Disclosure Act information.

OIG Investigations Seek to Thwart Identity Theft
Despite congressional efforts, regulations promulgated by federal agencies such as the FDIC,
and added emphasis by law enforcement, identity theft is becoming more sophisticated and
the number of victims is growing.
Identity theft includes using the Internet for new crimes such as “phishing” e-mails and
“pharming” Web sites that attempt to trick people into divulging their private financial infor-
mation by pretending to be legitimate businesses or government entities with a need for the
information that is requested. As referenced above, certain OIG audits and evaluations are
designed to focus on these issues and determine the effectiveness of the FDIC’s strategies and
its implementation of programs and activities to protect consumer privacy. OIG criminal
24                            SEMIANNUAL REPORT TO THE CONGRESS


                                                     investigations expose those who illegally seek
                                                     and use stolen identifications from the FDIC
                                                     or FDIC-supervised banks and their affiliates
                                                     and bring them to justice. Examples of such
                                                     investigative work conducted during the
                                                     reporting period follow.

                                                      ELECTRONIC CRIMES UNIT RESPONDS TO
                                                      PHISHING SCAMS INVOLVING THE FDIC AND
                                                      OIG
                                                     The OIG’s Electronic Crimes Unit (ECU)
                                                     responded to three incidents involving phish-
                                                     ing scams using a spoof of either the FDIC or
     OIG Web site as part of the scams. In one case, a Web site was mirroring the FDIC public
     Web site. The ECU obtained a forensic image of the mirror Web site and is investigating the
     effect of the mirror Web site and the identity of the individual operating the Web site. The
     mirror Web site is no longer active.
     In another incident, an e-mail from an address using the letters “fdic” attempted to solicit
     confidential information from financial institutions. The ECU subpoenaed MSN Hotmail
     and is continuing efforts to determine the identity of the individual using the e-mail address
     and from where the account was accessed. Initial results indicate that the e-mail account was
     accessed from western Africa, possibly Nigeria.
     Finally, the ECU responded to a phishing scam in which the FDIC OIG Web site was
     spoofed in an effort to solicit confidential information. The e-mails and correspondence
     replicated portions of the FDIC OIG Web site and included the name of the Deputy Inspec-
     tor General and other FDIC executives. The fraudulent e-mails and fax correspondence
     requested that the recipients apply for the issuance of clearance documents and insurance
     coverage to facilitate the release of funds. They were designed to look like a page from the
     FDIC OIG’s actual Web site.
     In response, the ECU and the OIG prepared a consumer alert and placed it on the FDIC
     OIG Web site, warning visitors of the phishing scam and referencing information on the
     FDIC’s Web site at http://www.fdic.gov/consumers/consumer/alerts/index.html.
     In addition, the ECU made contact with individuals who received either the fraudulent
     e-mail or the faxes and the ECU is continuing efforts to determine where the e-mail and faxes
     originated.

     Misrepresentation of FDIC Insurance
     Past OIG investigations have identified multiple schemes to defraud depositors by offering
     them misleading rates of return on deposits. These abuses are effected through the misuse
     of the FDIC’s name, logo, abbreviation, or other indicators suggesting the products are fully
     insured deposits. Such misrepresentations induce the targets of schemes to invest on the
     strength of FDIC insurance while misleading them as to the true nature of the investment
     products being offered. These depositors, who are often elderly and dependent on insured
     savings, have lost millions of dollars in the schemes. Depositors may be particularly attracted
     to these misrepresented investments in our current economy when interest paid on insured
     deposits is historically low and uninsured investments can put an investor’s principal at sub-
                         SEMIANNUAL REPORT TO THE CONGRESS                                            25


stantial risk. Further, abuses of this nature may erode public confidence in federal deposit
insurance. Some of our past semiannual reports to the Congress provide information on
cases that have been successfully investigated involving these types of misrepresentations,
including one case of $9.1 million worth of certificates of deposit misrepresented to about
90 investors, most of whom were elderly.
The FDIC currently has no direct enforcement authority over these misrepresentations. The
FDIC may, of course, generally address misconduct occurring in state chartered banks where
the FDIC is the primary federal regulator, but the abuses described above generally were per-
petrated outside of that system.
The OIG has proposed strengthening the FDIC’s enforcement authority to curtail these
abuses by granting the FDIC the authority to impose civil monetary penalties of up to
$1 million per day on any person who falsely represents the nature of the product offered
or the FDIC insurance coverage available. Section 615 of the Financial Services Regulatory
Relief Act (H.R. 3505) contains such provisions. It passed the House of Representatives on
March 8, 2006 and has been sent to the U.S. Senate for consideration.
An example of one of our successful cases related to misuse of the FDIC logo follows.

Misuse of FDIC Logo
FOREIGN CURRENCY TRADER PLEADS GUILTY TO WIRE FRAUD
On February 17, 2006, in the Southern District of Florida, a foreign currency trader pleaded
guilty to one count of wire fraud. The defendant was previously indicted on 11 counts of
wire fraud and 2 counts of forging and counterfeiting official seals of the United States,
including the logo of the FDIC. The defendant was to remain in custody until his sentencing
scheduled for April 27, 2006.
The indictment to which the defendant pleaded guilty alleged that from April 1999 through
June 2003, he fraudulently obtained $8.1 million from approximately 145 investors. The
defendant, an illegal immigrant, is a citizen of Venezuela and raised all of his money from
investors in Venezuela. The defendant solicited investors by representing that he had excep-
tional investment expertise and success. He promised approximately 145 investors that
they would earn a monthly return of 3 percent or 36 percent per annum on their investment.
Although the defendant did trade some currency through brokers in New York and London,
his actions rapidly became a Ponzi Scheme and the scheme began to collapse under its
own weight.
When investors became suspicious and began asking for the return on their capital, the defen-
dant falsely advised them, directly and through his employees and associates, that he was
unable to return their investments because the FDIC had allegedly “frozen” his funds pur-
suant to the USA PATRIOT Act, and as soon as his case was settled, he would return to each
investor the money they demanded. In support of this story, the defendant downloaded from
the Financial Crimes Enforcement Network, Department of the Treasury Web site, an assess-
ment of civil money penalty order involving Great Eastern Bank of Florida, an FDIC-super-
vised institution in Miami, Florida. The defendant then replaced Great Eastern Bank’s
letterhead with his own name, added the FDIC logo and seal to the document, and furnished
a copy of the fraudulent document to each of his victims.
          Joint investigation by the FDIC OIG and FBI; prosecuted by the U.S. Attorney’s Office for
                                                                  the Southern District of Florida.
26                            SEMIANNUAL REPORT TO THE CONGRESS


     ECU RESPONDS TO ALLEGATIONS OF BANKS FALSELY ADVERTISING FDIC INSURANCE
     During the reporting period, the FDIC’s Computer Security Incident Response Team
     reported two incidents of Web sites of financial institutions located outside the United States
     that advertised FDIC insurance. In both cases, the banks were not FDIC-insured institu-
     tions. The OIG’s ECU contacted the Internet service provider that hosted the Web sites and
     informed the provider that it was illegal to falsely advertise FDIC insurance. In both cases,
     the Web sites were immediately deactivated.
S T R AT E G I C G O A L 4
Receivership Management
Help Ensure that the FDIC is Ready
to Resolve Failed Banks and
Effectively Manages Receiverships




When a bank that offers federal deposit insurance fails, the FDIC fulfills its role as
insurer by either facilitating the transfer of the institution’s insured deposits to an
assuming institution or by paying insured depositors directly. Specifically, the FDIC’s
DRR mission is to plan and efficiently handle the resolutions of failing FDIC-insured
institutions and to provide prompt, responsive, and efficient administration of failing
and failed financial institutions in order to maintain confidence and stability in the
financial system.
Once an institution is closed by its chartering authority—the state for state-chartered
institutions, OCC for national banks, and OTS for federal savings associations—the
FDIC is responsible for resolving the failed bank or savings association. The FDIC
begins the resolution process with an assessment of the assets and liabilities of the insti-
tution. Using this information, DRR solicits proposals from approved bidders to pass
the insured deposits to an assuming bank and expedite the return of assets to the pri-
vate sector. Once the FDIC is appointed receiver, it initiates the closing process for
the failed institution and works to provide the insured depositors with access to their
accounts in 1 or 2 business days. To accomplish this, the FDIC works with the assum-
ing institution so that the insured deposit accounts are transferred to the assuming
institution as soon as possible.
If no assuming institution is found during the resolution process, the FDIC disburses
to customers of the failed institution the insured amount in each account category.
The FDIC, as receiver, manages the receivership estate and the subsidiaries of failed
financial institutions with the goal of achieving an expeditious and orderly termination.
Since the FDIC’s inception over 70 years ago, no depositor has ever experienced a loss
of insured deposits at an FDIC-insured institution due to a failure. Today record prof-
itability and capital in the banking industry have led to a substantial decrease in the
number of financial institution failures and near failures than were experienced in prior
years. In fact, 2005 was the first year in the FDIC’s history where no institution has
failed and there have been no failures in 2006 to date. Although there have been far
fewer failures in recent years than occurred during the years of crisis in the banking
industry, the FDIC’s responsibility for resolving troubled institutions remains a chal-
lenge. The FDIC reports that failures in today’s economy would differ in nature, size,

                                                                                               27
28                             SEMIANNUAL REPORT TO THE CONGRESS


     and cost from the record failures of the 80s and early 90s. Nonetheless, the FDIC could
     potentially have to handle a failing institution with a significantly larger number of insured
     deposits than it has had to deal with in the past or have to handle multiple failures caused by
     a single catastrophic event.
     The OIG’s role under this strategic goal is conducting audits and evaluations that assess the
     effectiveness of the FDIC’s various programs designed to ensure that the FDIC is ready to
     and does respond promptly, efficiently, and effectively to financial institution closings. Addi-
     tionally, the OIG investigative authorities are used to pursue instances where fraud is com-
     mitted to avoid paying the FDIC civil settlements, court-ordered restitution, and other
     payments as the institution receiver.
     2006 Performance Goals: To help ensure the FDIC is ready to resolve failed banks and
     effectively manages receiverships, the OIG will:
          ■   Evaluate the FDIC’s plans and systems for managing bank failures, and
          ■   Assist the FDIC in recovering financial losses from individuals fraudulently conceal-
              ing assets.


     OIG Work in Support of Goal 4
     Work done by both our Office of Audits and our Office of Investigations during the report-
     ing period addressed the challenges that the Corporation faces in the receivership manage-
     ment area, as discussed below.

     Audit of ASTEP
     When an institution fails, one of the FDIC’s critical functions is to manage and liquidate all
     of the institution’s assets. The Corporation’s existing asset servicing environment comprises
     a complex system of external, interim, and internal (in-house) servicing capabilities. The in-
     house technology consists of aging and highly customized commercial off-the-shelf software
     and internally developed applications that fulfill specific business functions. The purpose of
     the Corporation’s Asset Servicing Technology Enhancement Project (ASTEP) is to modernize
     the asset servicing function and align the processes performed under this function with indus-
     try best practices. ASTEP is intended to allow the FDIC to maximize the use of commer-
     cially available software products to integrate as much of the asset servicing function as
     possible and to provide the FDIC with a variety of vendor sourcing options.
     During the reporting period, KPMG LLP conducted an audit on our behalf to determine
     whether the FDIC has established an adequate project management control framework for
     ensuring the delivery of ASTEP in a timely and cost-effective manner to meet corporate
     requirements and user needs. KPMG reported that the ASTEP project management team
     developed planning documents and implemented various activities that generally complied
     with the FDIC’s project management guidance and that the project team considered com-
     mensurate with the status of the project. That is, during the initiation phase of ASTEP, the
     project management team performed business case analyses to identify benefits and improve-
     ments to the current system of asset servicing and developed a project work plan identifying
     activities to complete associated milestones. During the planning phase for system develop-
     ment, the project team also developed project charters that defined the goals and objectives
     for various project teams’ functions and a project governance structure that described support
                         SEMIANNUAL REPORT TO THE CONGRESS                                         29


functions to manage system development activities. Additionally, the project team developed
acquisition strategy, communications, risk management, and configuration management
plans.
We reported that as the project entered the execution phase for system development and was
re-baselined, strengthening the project management controls would facilitate decision making
and monitoring and help ensure that ASTEP meets the needs of its users within schedule and
budget requirements.
In that regard, KPMG recommended that as part of project re-baselining efforts, the FDIC:
     ■   fully document the costs and benefits of the ASTEP solution selected, and
     ■   enhance the ASTEP planning process to address the areas of improvement discussed
         in the report to achieve greater compliance with the FDIC Project Management
         Guide and to provide greater assurance of ASTEP success.
Management agreed with the recommendations and has either initiated or plans to initiate
corrective actions.

Audit of Efforts to Recover Unclaimed Deposits
The 1993 Unclaimed Deposits Amendment Act (UDAA) gives account owners 18 months
to claim their deposits after the failure of a financial institution. At the end of the 18-month
period, the FDIC transfers unclaimed deposits for failed FDIC-insured financial institutions
to the appropriate state unclaimed property agency of the owner’s last known address. The
state maintains custody of the funds in accordance with its unclaimed property laws for
10 years from the date the FDIC transferred the funds. After the 10-year holding period,
state unclaimed property agencies must return any unclaimed funds to the FDIC.
We conducted an audit to determine whether the FDIC has adequate systems in place to
accurately track and obtain the recovery of unclaimed deposits. We determined that overall,
the FDIC has established and implemented an effective system for tracking and recovering
unclaimed deposits transferred to state unclaimed property agencies. DRR has ensured that
unclaimed deposits transferred under the UDAA are properly documented, monitored, and
recovered in a timely manner. We made no recommendations in the report.

Office of Investigations Pursues Concealment of Assets Cases
The FDIC was owed more than $1.7 billion in criminal restitution as of March 31, 2006. In
most instances, the individuals do not have the means to pay. However, a few individuals do
have the means to pay but hide their assets and/or lie about their ability to pay. The OIG’s
Office of Investigations (OI) works closely with DRR and the Legal Division in aggressively
pursuing criminal investigations of these individuals. As of March 31, 2006, concealment of
assets cases constituted 12 percent of OI’s caseload. The results of one such significant case
are described below.

FORMER CEO OF SUNBELT SAVINGS CONVICTED
On January 31, 2006, after a week-long trial, the former CEO of the now defunct Sunbelt
Savings and Loan of Dallas, Texas, was convicted on all 27 counts of a superseding indict-
ment that charged him with 6 counts of mail fraud, 11 counts of making false statements,
9 counts of concealing assets from the FDIC and one count of money laundering. At a
30                             SEMIANNUAL REPORT TO THE CONGRESS


     separate hearing, the court found that the former CEO was subject to $2,054,366 in cash
     forfeitures.
     According to the indictment, since July 1993, the former CEO engaged in a scheme to
     defraud the FDIC of its payments under a $7.5 million restitution order and an $8.5 million
     civil judgment by creating a trust, known as Oslin Nation Trust. He allegedly concealed
     earnings from his business, and paid his personal expenses, legal, and accounting fees, and
     income payable to him by causing it to be paid directly to the trust.
     The indictment also alleged that the former CEO made false monthly reports to the U.S.
     Probation Office in order to conceal hundreds of thousands of dollars from the FDIC to
     avoid the requirements of the FDIC restitution order.
     The former CEO pleaded guilty in 1990 to federal fraud charges in connection with the col-
     lapse of Sunbelt, which lost approximately $2 billion during the 1980s. In the criminal case
     against him, he was ordered to pay back $7.5 million to the FDIC and $8.5 million in a civil
     judgment. His plea agreement required him to relinquish a portion of his income to repay
     the obligation, with the percentage increasing as the income increased.
              We investigated this case with assistance from the FDIC Legal Division. The U.S. Attorney’s
                                              Office for the Northern District of Texas prosecuted the case.

     Coordinating with DRR
     Our Office of Investigations coordinates closely with the Corporation’s DRR, with special
     attention to various types of financial institution fraud and related crimes, including conceal-
     ment of assets cases. During the reporting period, such coordination continued in both our
     headquarters and Dallas field sites, where OI staff met with DRR and the Legal Division’s
     Financial Crimes Unit. All criminal cases and referrals involving concealment of asset viola-
     tions are further coordinated with the various U.S. Attorneys’ Offices.
     In the case of bank closings where fraud is suspected, OI is prepared to send case agents and
     computer forensic special agents from the ECU to the institution. Their principal role is to
     provide computer forensic support to OI’s investigations by obtaining, preserving, and later
     examining evidence from computers at the bank.
S T R AT E G I C G O A L 5
Resources Management
Promote Sound Governance and
Effective Stewardship of Financial,
Human, IT, and Procurement Resources




The FDIC must effectively manage and utilize a number of critical strategic resources
in order to carry out its mission successfully, particularly its financial, human, IT, and
procurement resources. The Corporation does not receive an annual appropriation,
except for its OIG, but rather is funded by the premiums that banks and thrift institu-
tions pay for deposit insurance coverage, the sale of assets recovered from failed banks
and thrifts, and earnings on investments in U.S. Treasury securities.
The FDIC Board of Directors approves an annual Corporate Operating Budget to fund
the operations of the Corporation. This budget provides resources for the operations
of the Corporation’s three major programs or business lines—Insurance, Supervision,
and Receivership Management—as well as its major program support functions (legal,
administrative, financial, IT, etc.). Program support costs are allocated to the three
business lines so that the fully loaded costs of each business line are displayed in the
operating budget approved by the Board.
The FDIC’s separate Investment Budget is composed of individual project budgets
approved by the Board of Directors for major investment projects. Budgets for invest-
ment projects are approved on a multi-year basis, and funds for an approved project
may be carried over from year to year until the project is completed. A number of the
Corporation’s more costly IT projects are approved as part of the investment budget
process.
Financial resources are but one aspect of the FDIC’s critical assets. The Corporation’s
human capital is also vital to its success. The Government Accountability Office
(GAO) has reported that to attain the highest level of performance and accountability,
an agency’s people are its most important aspect because they define the agency’s char-
acter and ability to perform. GAO identified four key human capital cornerstones for
effective management of human capital: Leadership; Strategic Human Capital Plan-
ning; Acquiring, Developing, and Retaining Talent; and Performance Culture. The
Corporation’s workforce is supplemented by various contracts which must also be over-
seen by the Corporation.
Information technology drives and supports the manner in which the public and pri-
vate sector conduct their work. At the FDIC, the Corporation seeks to leverage IT to
support its business goals and to improve the operational efficiency of its business
                                                                                             31
32                             SEMIANNUAL REPORT TO THE CONGRESS


     processes. The financial services industry employs technology for similar purposes. Emerg-
     ing technology is introducing new ways for insured depository institutions to deliver and
     manage traditional products and services, and, in some instances, to develop innovative offer-
     ings. Financial data is being exchanged at rapid speed and the business of banking is being
     greatly facilitated by modernization.
     Along with the positive benefits that IT offers comes a certain degree of risk. In that regard,
     information security has been a long-standing and widely acknowledged concern among fed-
     eral agencies. A key effort for all agencies must be the establishment of effective information
     security programs. Title II of the E-Government Act of 2002, entitled the Federal Informa-
     tion Security Management Act, requires each agency to develop, document, and implement
     an agency-wide information security program to provide adequate security for the informa-
     tion and information systems that support the operations and assets of the agency.
     The OIG’s role in this strategic goal is to perform audits, evaluations, and investigations that
          ■   identify opportunities for more economical, efficient, and effective corporate expen-
              ditures of funds;
          ■   recommend actions for more effective governance and risk management practices;
          ■   foster corporate human capital strategies that benefit employees; strengthen employ-
              ees’ knowledge, skills, and abilities; ensure employee and contractor integrity; and
              inspire employees to perform to their maximum capacity;
          ■   help the Corporation to leverage the value of technology in accomplishing the corpo-
              rate mission and promote the security of both IT and human resources; and
          ■   ensure that procurement practices are fair, efficient, effective, and economical.
     2006 Performance Goals: To promote sound governance and effective stewardship of FDIC
     strategic resources, the OIG will
          ■   Evaluate the Corporation’s efforts to fund operations efficiently, effectively, and eco-
              nomically.
          ■   Assess the Corporation’s human capital strategic initiatives to ensure a high-perform-
              ing work-force that views the FDIC as an employer of choice and that stands ready to
              meet challenges in the banking industry.
          ■   Promote maximization of IT resources for efficiency and effectiveness and ensure IT
              and physical security to protect all FDIC resources from harm.
          ■   Evaluate the Corporation’s contracting efforts to ensure goods and services are fairly,
              efficiently, and economically procured.
          ■   Monitor corporate efforts to identify and analyze the FDIC risk environment and val-
              idate that a sound internal control environment is in place and working well.


     OIG Work in Support of Goal 5
     Much of our Office of Audits’ work was conducted in pursuit of this strategic goal during
     the reporting period, as shown in the following discussion. Audits and evaluations addressed
     important human capital issues, information security matters, and various aspects of corpo-
                         SEMIANNUAL REPORT TO THE CONGRESS                                          33


rate procurement activities. Additionally, investigations involving employee integrity issues
and investigative work related to identity theft perpetrated upon FDIC employees con-
tributed to positive results of OIG efforts to address Goal 5.

ODEO’s Complaint Resolution Process
The Office of Diversity and Economic Opportunity (ODEO) implements the discrimination
complaint resolution process in accordance with Title 29 of the Code of Federal Regulations,
Part 1614, Federal Sector Equal Employment Opportunity, effective November 9, 1999,
which mandates specific time frames for federal agencies to process, investigate, and issue
agency decisions on discrimination complaints.
We conducted a review as a follow-up to earlier evaluations of the FDIC’s Equal Employment
Opportunity (EEO) discrimination complaint resolution process that we performed with
the FDIC’s Office of Enterprise Risk Management (OERM), formerly the Office of Internal
Control Management. The objective of our recent work was to evaluate the FDIC’s discrimi-
nation complaint resolution process and management of the FDIC’s formal complaint case
load. Because of data reliability issues associated with ODEO’s case tracking system, we
focused, instead, on ODEO’s conversion to a new complaint tracking system. We limited
our scope to presenting, not validating, ODEO’s case processing statistics and ODEO’s per-
spective on the statistics.
We noted that ODEO’s overall average case processing time frames had increased by 39 per-
cent since 1996 to 986 days, whereas other federal agencies had experienced a 24-percent
increase in case processing time frames over this same period, averaging 469 days. Addition-
ally, ODEO was without reliable data in its discrimination complaint case tracking system.
The lack of a reliable case tracking system could hamper ODEO’s ability to effectively man-
age its complaint case load and to efficiently meet internal and external reporting require-
ments. Further, ODEO could not readily respond to ad hoc requests for information, and
there was an increased vulnerability for reporting errors using manually gathered information.
We recommended that ODEO (1) develop a formal remediation plan to address data reliabil-
ity of the case tracking system that establishes milestones and identifies appropriate and suffi-
cient resources to complete the remediation in a timely and effective manner and (2) arrange
for an independent follow-up review of ODEO’s compliance with EEO case processing time
frames, following remediation of the case tracking system data reliability issues.
Management agreed with both of our recommendations and is working with the Corpora-
tion’s OERM to address the concerns we identified.

Safeguards Over Personal Employee Information
The Federal Trade Commission defines identity theft as “a fraud that is committed or
attempted, using a person’s identifying information without permission.” Identity theft is
one of the fastest growing crimes in the country and has involved private sector and federal
agency information. The FDIC is no exception and has experienced several breaches involv-
ing personal employee information. For example, a security breach identified in 2005
involved unauthorized access to personal information for a large number of current and
former FDIC employees.
Among other things, the Privacy Act of 1974 requires federal agencies to limit the collection,
disclosure, and use of personal information maintained in systems of records and to establish
reasonable safeguards over those records.
34                            SEMIANNUAL REPORT TO THE CONGRESS


     In July 2005, at the request of the Director, Division of Administration, we initiated a review
     to evaluate the FDIC’s policies, procedures, and practices for safeguarding personal employee
     information in hardcopy and electronic form.
     We reported that the FDIC has a corporate-wide program for protecting personal employee
     information, has appointed a Chief Privacy Officer with responsibility for privacy and data
     protection policy, and is making efforts to enhance its privacy program in response to legisla-
     tive requirements and breaches of FDIC employee information. Our report noted that the
     Corporation had a number of programmatic initiatives and notable physical and electronic
     safeguards over personal employee information in place or underway.
     We identified opportunities for the FDIC to strengthen its privacy program for protecting
     personal employee information, including:
          ■   Developing an overarching privacy policy to ensure coordination between the Chief
              Privacy Officer and Privacy Act Clearance Officer and updating systems of record
              notices pertaining to employee information, especially information maintained by
              contractors.
          ■   Ensuring that contracts, for which the scope requires contractors to maintain per-
              sonal employee information, contain adequate references to the Privacy Act, appro-
              priate confidentiality clauses, and signed confidentiality agreements.
          ■   Conducting some form of security review or obtaining assurances through third-party
              security reviews for contractors and vendors that maintain personal employee infor-
              mation in electronic form.
     These additional controls will help to ensure that the FDIC complies fully with privacy-
     related legislation and regulations; identifies personal employee information maintained by
     the FDIC and its contractors that needs to be protected; and implements sufficient adminis-
     trative, physical, and technical controls over such information.
     We made 15 recommendations to strengthen the FDIC’s privacy program. The Corporation
     generally concurred with our report and agreed to take corrective action on 12 recommenda-
     tions. Other actions taken and/or controls in place were sufficient to address the remaining
     three recommendations.

     The FDIC’s Certification and Accreditation Program
     The Office of Management and Budget requires agencies to certify and accredit their infor-
     mation systems consistent with federal security policies, standards, and guidelines. Certifica-
     tion involves the evaluation of an information system’s management, operational, and
     technical security controls. Accreditation involves a senior agency official’s authorization of
     an information system to operate. The certification and accreditation of federal information
     systems is critical to securing the government’s operations and assets. We contracted with
     KPMG LLP (KPMG) to audit and report on the FDIC’s security certification and accredita-
     tion (C&A) program.
     KPMG determined that the FDIC established and implemented C&A policies, procedures,
     and practices that were satisfactory and consistent with federal standards and guidelines. The
     FDIC continued to build its C&A program during 2005 in response to evolving National
     Institute of Standards and Technology guidance, and additional improvements were under-
     way at the close of field work. Further, the FDIC had undertaken action to address certain
                          SEMIANNUAL REPORT TO THE CONGRESS                                         35


C&A-related matters previously identified in
the OIG’s September 2005 security evalua-
tion report required by the Federal Informa-
tion Security Management Act.
We reported that the FDIC could further
strengthen its C&A program by:
     ■   enhancing system sensitivity assess-
         ment guidance to describe how final
         security categorizations are deter-
         mined;
     ■   ensuring that application security
         plans adequately describe how com-
         mon security controls and general
         support systems critical to the secu-
         rity of the application are considered
         in the application’s C&A;
     ■   ensuring the cost-benefit of alterna-
         tive control solutions for reducing or
         eliminating vulnerabilities;
     ■   enhancing written procedures for defining the nature and scope of testing, managing
         system-level plans of action and milestones, accepting risks associated with system
         security weaknesses, and issuing interim systems authorizations; and
     ■   establishing formal milestone reviews at key points in the C&A process to ensure that
         critical documentation is current, accurate, and complete.
These program enhancements will provide FDIC management with greater assurance that
system security risks are effectively managed and that C&A practices are consistently applied
throughout the Corporation. We also performed benchmarking with other federal agencies
and included the results in our report.
KPMG recommended that the FDIC’s Chief Information Officer strengthen the FDIC’s
C&A policies, procedures, and guidelines by considering and addressing, as appropriate, the
issues described in this report. The FDIC’s comments were responsive to the recommenda-
tion.

Security of Wireless Communications
Wireless technology offers federal agencies a number of important benefits, such as increased
employee productivity and ease of network installation. However, this technology also pres-
ents a number of potentially significant security risks to the confidentiality, availability, and
integrity of sensitive information. Such risks include the interception of communications
not intended for public disclosure, denial of service attacks, and unauthorized deployment of
wireless-enabled devices. We contracted with KPMG LLP to audit and report on the security
of the FDIC’s wireless data communications.
KPMG found that the FDIC established and implemented security controls for its wireless
data communications that were generally consistent with the National Institute of Standards
36                             SEMIANNUAL REPORT TO THE CONGRESS


     and Technology’s recommended practices. Such controls include policies to govern the
     deployment of wireless-enabled devices connected to the FDIC’s corporate network, security
     software to authenticate wireless users to the corporate network and protect the confidential-
     ity of their communications, and procedures to assess wireless security activities. However,
     additional controls are needed to provide reasonable assurance of adequate security.
     KPMG recommended that the FDIC’s Chief Information Officer (CIO):
          ■   enhance the Corporation’s wireless security policies and awareness training; and
          ■   restrict access to critical software programs designed to safeguard wireless data com-
              munications.
     The CIO provided written comments that were responsive to the report’s recommendations.

     Contracting with a Consolidated Facilities Management Approach
     As part of the FDIC’s strategic goal to substantially reduce corporate operating costs, the
     Division of Administration implemented the Consolidated Facilities Management (CFM)
     approach and awarded a $30.4 million CFM contract to Consolidated Engineering Services,
     Inc. in April 2003. The CFM approach combined 13 facilities-related contracts into a single
     “bundled” contract designed to reduce administrative costs and simplify the management of
     various building services at FDIC-owned headquarters facilities and leased space.
     We conducted an audit to determine whether the contract structure and FDIC contract man-
     agement were adequate to ensure the economical and efficient management of the FDIC’s
     Washington, D.C., area facilities.
     The CFM contract structure (implementation of the CFM approach) and the FDIC’s man-
     agement of the contract were generally adequate to ensure the efficient operation of the
     FDIC’s Washington, D.C., area facilities. An independent engineering firm determined that
     the facilities were well-maintained, and a customer satisfaction survey indicated that most
     FDIC employees were satisfied with the overall physical environment in FDIC building
     space. However, we could not determine whether the CFM contract resulted in more eco-
     nomical facilities management services due to weaknesses in certain procurement-related
     internal controls.
     We made recommendations to improve internal control over the process for awarding and
     monitoring the benefits of bundled contracts, capitalizing costs, and structuring incentives
     on the CFM contract. We questioned $193,131 in janitorial incentive payments for per-
     formance that did not exceed the standards in the statement of work. We also identified
     a total of $1,538,771 in funds put to better use related to (1) the Corporation’s expensing
     rather than capitalizing costs and (2) the potential payment of additional incentive fees for
     janitorial services.
     The FDIC generally agreed or provided responsive alternative corrective action to most of
     our recommendations. In particular, the FDIC agreed to amend policy guidance to include
     coverage of contract bundling and capitalize costs associated with a major capital improve-
     ment. At the time we issued our report, the FDIC did not agree to specifically require market
     research and justifications for noncompetitive procurement for large-dollar-value work orders
     on existing contracts. However, we subsequently resolved this recommendation. Addition-
     ally, FDIC management did not agree with the monetary benefits we identified.
                         SEMIANNUAL REPORT TO THE CONGRESS                                      37


Billing Reviews and Other Ongoing Work
We conducted two post-award contract audits during the reporting period, and in those
audits we identified a total of $3,196,831 in questioned costs.
Ongoing work at the end of the reporting period in support of this strategic goal included
audits related to the following:
     ■   The FDIC Emergency Operations Plan
     ■   Application Controls
     ■   Records Disposal
     ■   Contract Administration
     ■   FEDSIM Contract
     ■   Federal Information Security Management Act Evaluation

Investigations of Employee and Contractor Actions
The OIG conducts investigations, as needed, of criminal or serious misconduct on the part of
FDIC employees and contractors to ensure a working environment of high integrity. During
the reporting period investigations addressed such matters as misuse of government property,
misuse of position, and other employee misconduct.
We successfully investigated and achieved results in a case involving a former FDIC intern’s
conspiracy to commit bank fraud and identity theft during the reporting period, as discussed
below.

FORMER FDIC INTERN AND ACCOMPLICE SENTENCED
On March 24, 2006, in the U.S. District Court for the Eastern District of Virginia, a former
intern at the FDIC was sentenced to 60 months’ imprisonment; and ordered to make restitu-
tion of $207,186 to the FDIC, $407,890 to CUNA Mutual Insurance Group, and $17,937
to the National Institutes of Health Federal Credit Union (NIHFCU). His sentence was the
result of his earlier guilty plea to a one-count information charging him with conspiracy to
commit bank fraud and identity theft.
In early 2004, the former intern fraudulently obtained an internal administrative report from
an employee of the FDIC, which listed names, dates of birth, and social security numbers for
more than 5,000 employees of the FDIC. Beginning in April 2004 and until January 2005,
in order to determine which of the FDIC employees had good credit, the former intern went
to car dealerships located in Virginia and Maryland and paid individuals working at those
dealerships to obtain credit reports on a number of the FDIC employees. Based on these
credit reports, he compiled a list of FDIC employees with good credit. He then obtained
copies of false Maryland driver’s licenses from another person in Maryland for some of those
FDIC employees.
Thereafter, he approached a woman who, at the time, was an employee of the George Wash-
ington University branch of the NIHFCU to fraudulently open accounts at, and obtain loans
from, NIHFCU under the FDIC employees’ names. Because all of the FDIC employees had
good credit, NIHFCU granted lines of credit to each of them. The former intern then made
38                             SEMIANNUAL REPORT TO THE CONGRESS


     a series of withdrawals on the lines of credit, obtaining approximately $425,827 from NIH-
     FCU. Because its employees’ credit had been put in jeopardy, the FDIC contracted with a
     credit reporting bureau to provide fraud protection to all affected FDIC employees.
     On January 27, 2006, the former NIHFCU employee was sentenced in the U.S. District
     Court for the Eastern District of Virginia to 24 months’ incarceration, and ordered to pay
     $425,827 in restitution to the National Institute of Health. Her sentence was reduced as a
     result of her cooperation against the former intern.
                The FDIC OIG is conducting this investigation jointly with the FBI. The U.S. Attorney’s
                                     Office for the Eastern District of Virginia is prosecuting the case.
S T R AT E G I C G O A L 6
OIG Internal Processes
Continuously Enhance the OIG’s
Business and Management Processes




The FDIC OIG is one of 57 such offices in the federal government. Along with GAO
and other law enforcement organizations, the Inspectors General are part of a network
of government organizations with common purposes for fostering greater accountabil-
ity, integrity, and excellence in government programs and operations. Although no two
organizations are identical, these organizations provide the FDIC OIG with an oppor-
tunity to observe and adopt best practices in use in other organizations with similar
missions and values.
While the purpose of our organization is focused on FDIC’s programs and operations,
the OIG has an inherent obligation to hold itself and its people to the highest stan-
dards of performance and conduct. Like any organization, we have processes and
procedures for conducting our work; communicating with our clients, staff, and stake-
holders; managing our financial resources; aligning our human capital to our mission;
strategically planning and measuring the outcomes of our work; maximizing the cost-
effective use of technology; and ensuring our work products are timely, value-added,
accurate, complete, and meet applicable professional standards.
2006 Performance Goals: To continuously enhance the OIG’s business and manage-
ment processes, the OIG will
    ■   Enhance strategic and annual planning and performance measurement;
    ■   Strengthen human capital management to achieve enhanced results;
    ■   Ensure the quality and efficiency of OIG audits, evaluations, and investiga-
        tions;
    ■   Foster good relationships with clients, stakeholders, and OIG staff; and
    ■   Invest in cost-effective and secure IT that improves performance and produc-
        tivity.
The following actions during the reporting period supported our efforts to continu-
ously enhance our business and management processes.


                                                                                        39
40                             SEMIANNUAL REPORT TO THE CONGRESS


     Strategic and Annual Planning and
     Performance Measurement Activities
      ●   Issued our Office of Audits Assignment Plan for Fiscal Year 2006, which included
          assignments that are designed to add value to the Corporation in a variety of ways,
          including assessing program effectiveness, management, and results; economy and effi-
          ciency; internal control; and compliance with legal or other requirements and by help-
          ing to deter and detect instances of fraud, waste, and abuse.
      ●   Formulated the OIG’s assessment of the most significant management and performance
          challenges facing the Corporation, in the spirit of the Reports Consolidation Act of
          2000. This assessment was factored into the Office of Audits’ Assignment Plan and
          helped shape the OIG’s Business Plan for 2006. The OIG’s assessment was provided
          to FDIC management for inclusion in the FDIC’s performance and accountability
          report—i.e., the Annual Report. We identified the following challenges:
          ■   Assessing and mitigating risks to the insurance funds
          ■   Ensuring institution safety and soundness through effective examinations, enforce-
              ment, and follow-up
          ■   Contributing to public confidence in insured depository institutions
          ■   Protecting and educating consumers and ensuring compliance
          ■   Being ready for potential institution failures
          ■   Managing and protecting financial, human, IT, and procurement resources.


      ●   Issued our fiscal year 2006 Business Plan in February 2006. It combines the Strategic
          Plan for fiscal years 2006 through 2011 and Performance Plan for fiscal year 2006. In
          updating our plan, we revised our focus to include performance measures more reflec-
          tive of mission-related goals and outcomes. We also added qualitative performance
          goals to complement our quantitative performance measures. Each qualitative perform-
          ance goal includes a set of key efforts representing ongoing work or work to be under-
          taken during 2006 in support of the goal. Also, potential outcomes were identified for
          each performance goal to highlight the improvements that may result from these key
          efforts. Our quantitative measures were streamlined to a few key measures with a
          greater emphasis on outcomes and results.
      ●   Used the 2006 business planning framework to guide office-wide planning efforts for
          2007/2008 that will fully integrate and align our performance planning, audit assign-
          ment planning, performance reporting, and budgeting processes. A timeline has been
          prepared showing key milestones in the planning process, including development of
          the business plan, audit assignment plan, and management and performance challenges.
      ●   Continued to assess and monitor risks to the OIG and the internal controls in place to
          manage the risks as part of our responsibilities under the Corporation’s Internal Control
          and Risk Management Program. These responsibilities include identifying risks and
          control objectives, conducting risk assessments, documenting and testing the control
          process, determining and tracking corrective actions for control weaknesses, reporting
                         SEMIANNUAL REPORT TO THE CONGRESS                                       41


     the results, and annually certifying to the condition of our internal control program and
     administrative control systems. The OIG also monitors the administration of its Inter-
     nal Control and Risk Management Program to help assure that pertinent risks and
     internal controls are identified and evaluated in an efficient and effective manner.


Human Capital Initiatives
 ●   Completed a baseline workforce analysis (2000-2005). It provided data, charts, and
     graphs illustrating OIG trends in workforce size and demographics, workforce
     salary/benefits cost, workforce training spending, and employee retirement eligibility
     through 2010.
 ●   Formed mentoring partnerships for four OIG staff members. These partnerships pair
     newer members of the OIG with other more experienced members of the office to pro-
     mote professional growth and development.
 ●   Focused on OA’s training needs and examined various criteria to use when identifying
     individual and office training needs. Planned for a training program targeted to message
     development and report writing skills, a key component of the OIG’s core competency
     on communications.
 ●   Advertised vacancy announcements through the Corporation’s Careers System with
     questions for applicants to answer relating to OIG core competencies. Such questions
     are also included in the interview process. Also, all OIG position descriptions are com-
     pleted with core competencies integrated.
 ●   Solicited input from the OIG Employee Advisory Group in light of organizational and
     leadership changes in the OIG to ensure that the Advisory Group can continue to serve
     as a forum for OIG staff to address concerns and provide ideas for improving OIG busi-
     ness processes, employee relations, and working conditions.
 ●   Assessed OIG activities in support of the Corporation’s diversity goals.


Quality of Audits, Evaluations, Investigations
 ●   Underwent an external peer review of our Office of Investigations’ operations, con-
     ducted by the Department of the Treasury, Office of Investigations. The report results
     stated that in Treasury OIG’s opinion, our Office of Investigations’ system of internal
     safeguards and management procedures for our investigative function is in full compli-
     ance with the quality standards established by the President’s Council on Integrity and
     Efficiency (PCIE) and the Attorney General guidelines. The external review was con-
     ducted at our headquarters’ and Eastern Region Atlanta offices. Internal reviews of our
     Western Region Dallas and Chicago offices will be conducted during the remainder of
     this fiscal year.
 ●   Focused on a segment of the PCIE Peer Review Guide which serves to document the
     Office of Audits’ quality control policies and procedures, in preparation for OA’s fiscal
     year 2007 peer review. Continued work to ensure that all working papers from com-
     pleted audits and evaluations are properly archived.
42                             SEMIANNUAL REPORT TO THE CONGRESS


      ●   Began planning for the FDIC OIG’s peer review of the Office of Audits of the Depart-
          ment of Justice OIG, including establishing a point of contact, identifying staffing
          needs, and establishing a timetable for conducting our review. An entrance conference is
          scheduled to take place in early September 2006, with final report issuance in February
          2007.
      ●   Counsel’s Office provided advice and counsel and determinations of legal applicability
          on issues arising with respect to audits, evaluations, and investigations, including the
          legal accuracy and sufficiency of audit and evaluation reports.


     Fostering Good Relationships with Stakeholders
      ●   Participated in quarterly meetings with FDIC senior management officials to keep them
          apprised of ongoing audit and evaluation reviews and results.
      ●   Continued to work closely with FDIC developing presentations that include in-depth
          discussions of “lessons learned/red flags” based on our experience in investigating major
          fraud at financial institutions. The presentations provide an overview of the investigative
          process, alert examiners to possible red flags or signs of fraud and/or obstruction and
          provide guidance on making
          referrals
          and coordinating with the OIG                    A Strong Partnership
          regarding suspected fraud.
          Office of Investigations provides      The OIG has partnered with various U.S. Attorneys’ Offices
          these types of presentations at        throughout the country in bringing to justice individuals
          training conferences, Federal          who have defrauded the FDIC or financial institutions
          Financial Institutions Examina-        within the jurisdiction of the FDIC, or criminally impeded
          tion Council seminars, DSC             the FDIC’s examination and resolution processes. The
          Field Office meetings, and             alliances with the U.S. Attorneys’ Offices have yielded
          bankers’ outreach sessions.            positive results during this reporting period.
                                                  Our strong partnership has evolved from years of trust and
      ●   Continued efforts to keep DSC,
                                                  hard work in pursuing offenders through parallel criminal
          DRR, Legal, and other FDIC
                                                  and civil remedies resulting in major successes, with
          program offices informed of the
                                                  harsh sanctions for the offenders. Our collective efforts
          status and results of our inves-
                                                  have served as a deterrent to others contemplating crimi-
          tigative work impacting their
                                                  nal activity and helped maintain the public’s confidence in
          respective offices. We continued
                                                  the nation’s financial system.
          to issue quarterly reports to
          DSC, DRR, Legal and the                 For the current reporting period, we are especially appre-
          Chairman’s Office outlining             ciative of the efforts of the Assistant U.S. Attorneys in the
          activity and results in our cases       following offices: Southern District of Iowa, Western Dis-
          involving closed and open banks,        trict of Tennessee, Southern District of Florida, Northern
          asset and debt cases. We contin-        District of Texas, Middle District of Georgia, Northern Dis-
          ued to meet quarterly with DSC,         trict of Illinois, District of Minnesota, Eastern District of
          DRR, and the Financial Crimes           Texas, Southern District of Texas, Western District of Okla-
          Unit to review ongoing cases of         homa, Northern District of Iowa, District of Mexico, West-
          interest, and we coordinated            ern District of Texas, Central District of Illinois, District of
          routinely with these offices            Kansas, District of South Carolina, and the Eastern District
          regarding bank closings, financial      of Virginia. The OIG also worked closely with Trial Attor-
          institution fraud cases, conceal-       neys from the Fraud Section of the U.S. Department of Jus-
          ment of assets cases, and restitu-      tice and the State of Missouri Attorney General.
          tion orders. As appropriate, we
                        SEMIANNUAL REPORT TO THE CONGRESS                                        43


     continued to coordinate with and brief affected program officials regarding employee
     cases. Also met with the Ethics Office regarding concerns arising from employee cases.
 ●   Reviewed and provided timely comments to corporate stakeholders on eight corporate
     directives and circulars. Of note, we provided substantive comments on proposed pol-
     icy regarding Employee Rights and Responsibilities Under the Privacy Act of 1974, Pro-
     cedures for Processing Freedom of Information Act Requests, Encryption and Digital
     Signatures for Electronic Mail, and the FDIC’s Software Configuration Management
     Policy.
 ●   Attended monthly meetings of the FDIC Audit Committee and presented the results of
     significant audit and evaluation assignments for consideration by Committee Members.
 ●   Communicated with the Acting Chairman regularly through meetings and issuance of
     Chairman’s Highlights reports.
 ●   Participated with other OIGs in the PCIE and Executive Council on Integrity and Effi-
     ciency through attendance at regular meetings and participation in ongoing activities
     in the Inspector General (IG) community, such as the Homeland Security Roundtable,
     Hurricane Katrina Working Group, IG E-Learning initiative, and various surveys.
 ●   Met with representatives of the OIGs of the federal banking regulators (Federal Reserve,
     Treasury, NCUA) to discuss ongoing or planned audit efforts in response to the Gulf
     Coast hurricanes.
 ●   Attended regular Assistant Inspector General for Investigation meetings and attended
     the annual OIG Directors of Investigations conference. OI representatives also regu-
     larly attended meetings of the National Bank Fraud Working Group and similar work-
     ing groups held throughout the country. OI participates in the Cyber Fraud and the
     Check Fraud working groups, subgroups of the Bank Fraud Working Group, attended
     by law enforcement, Department of Justice officials, and regulators.
 ●   Held four congressional briefings on the OIG’s 2006 assignment plan to share with
     Congressional parties the OIG’s planned approach on matters of mutual interest.
 ●   Coordinated with GAO on ongoing audit work and attended a GAO forum on the
     overall role of Inspectors General and their working relations with GAO.


Investing in Cost-Effective, Secure
IT to Enhance Performance and Productivity
 ●   Established Web-based access to our investigative data base to allow more flexibility for
     agents to enter investigative data.
 ●   Continued work with the OIG component offices to post and/or update information
     on the FDIC OIG Internet and Intranet sites in the interest of facilitating internal work
     efforts and providing easily accessible information to parties external to our office who
     are interested in our office and the results of our work.
 ●   Took a number of measures in coordination with the Division of Information Technol-
     ogy to ensure the security of OIG IT resources and data.
44                           SEMIANNUAL REPORT TO THE CONGRESS



                 Cumulative
     Cumulative Results (2-year period)Results            (2-year period)

                                Nonmonetary Recommendations

                                     April 2004 – September 2004          86
                                     October 2004 – March 2005            37
                                     April 2005 – September 2005          39
                                     October 2005 – March 2006            34


     Products Issued and Investigations Closed

     40                                                                                      37
                31
     30
                                                               25
                                      23
                                                                          20
     20                    17                                                      18

                                                 11
     10

      0
              4/04–9/04 10/04–3/05 4/05–9/05 10/05–3/06    4/04–9/04 10/04–3/05 4/05–9/05 10/05–3/06
                     Audits and Evaluations                              Investigations


     Questioned Costs/Funds Put to Better Use (in millions)

     60
                  51.2
     50
     40
     30
     20
                                              11.9
     10                                                                                    4.9
                                                                 0.98
      0
               4/04–9/04                   10/04–3/05         4/05–9/05                 10/05–3/06


     Fines, Restitution, and Monetary Recoveries Resulting from OIG Investigations (in millions)

     40           38.6


     30
                                              24.1

     20
                                                                                           12.8
     10                                                            5.4

      0
               4/04–9/04                   10/04–3/05         4/05–9/05                 10/05–3/06
Reporting Requirements




Index of Reporting Requirements -
Inspector General Act of 1978, as amended
REPORTING REQUIREMENTS                                                         PAGE


Section 4(a)(2): Review of legislation and regulations                           47


Section 5(a)(1): Significant problems, abuses, and deficiencies                5-38


Section 5(a)(2): Recommendations with respect to significant
                 problems, abuses, and deficiencies                            5-38


Section 5(a)(3): Recommendations described in previous semiannual
                 reports on which corrective action has not been completed       47


Section 5(a)(4): Matters referred to prosecutive authorities                      4


Section 5(a)(5) and 6(b)(2): Summary of instances where
                             requested information was refused                   52


Section 5(a)(6): Listing of audit reports                                        50


Section 5(a)(7): Summary of particularly significant reports                   5-38


Section 5(a)(8): Statistical table showing the total number of audit reports
                 and the total dollar value of questioned costs                  51


                                                                                      45
46                              SEMIANNUAL REPORT TO THE CONGRESS


     Section 5(a)(9): Statistical table showing the total number of audit reports and the
                      total dollar value of recommendations that funds be put to better use   51


     Section 5(a)(10): Audit recommendations more than 6 months old for
                       which no management decision has been made                             52


     Section 5(a)(11): Significant revised management decisions during the
                        current reporting period                                              52


     Section 5(a)(12): Significant management decisions with which
                       the OIG disagreed                                                      52
Information Required by
the Inspector General
Act of 1978, as amended




Review of Legislation and Regulations
The FDIC OIG is tasked under the Inspector General Act of 1978 with reviewing
existing and proposed legislation and regulations relating to programs and operations
of the Corporation and making recommendations in the semiannual reports concern-
ing the impact of such legislation or regulations on the economy and efficiency in the
administration of programs and operations administered or financed by the Corpora-
tion or the prevention and detection of fraud and abuse in its programs and operations.
Foremost, the Office of Counsel reviewed the Deposit Insurance Reform Act of 2006,
the FDIC Legal Division’s summary analysis, and the proposed regulations implement-
ing the Reform Act. The Office of Counsel did not issue comments on the legislation
or proposed regulations. Additionally, Counsel’s Office reviewed a Preemption Regula-
tion drafted in response to a petition by a banking roundtable group. The regulation
sought equal footing for state-chartered banks given the preemption regulations for
national banks issued by the Office of the Comptroller of the Currency. Counsel’s
Office provided no comments.

Table I: Significant Recommendations From Previous Semiannual
Reports on Which Corrective Actions Have Not Been Completed
This table shows the corrective actions management has agreed to implement but has
not completed, along with associated monetary amounts. In some cases, these correc-
tive actions are different from the initial recommendations made in the audit reports.
However, the OIG has agreed that the planned actions meet the intent of the initial
recommendations. The information in this table is based on (1) information supplied
by FDIC’s Office of Enterprise Risk Management (OERM) and (2) the OIG’s determi-
nation of closed recommendations for reports issued after March 31, 2002. These
11 recommendations from 7 reports involve improvements in operations and pro-
grams. OERM has categorized the status of these recommendations as follows:

Management Action in Process: (11 recommendations from 7 reports)
Management is in the process of implementing the corrective action plan, which may
include modifications to policies, procedures, systems or controls; issues involving
monetary collection; and settlement negotiations in process.                              47
48                                 SEMIANNUAL REPORT TO THE CONGRESS


     Significant Recommendations From Previous Semiannual Reports
     on Which Corrective Actions Have Not Been Completed

     Report Number,                 Significant             Brief Summary of Planned Corrective
     Title & Date                   Recommendation Number   Actions and Associated Monetary Amounts

                        MANAGEM E NT             ACT ION      IN     P R OCE S S

     04-009                         4■                      Research and investigate solutions and
     Evaluation of FDIC’s Intru-                            tools for aggregating event information from
     sion Detection and Incident                            different security logging devices to better
     Response Capability                                    distinguish malicious activity from normal
     February 13, 2004                                      network traffic to reduce false positives.


     04-016                         3                       Review all employees in moderate risk-level
     FDIC’s Personnel Security                              positions to ensure that appropriate back-
     Program                                                ground investigations have been performed.
     March 30, 2004


     05-005                         2                       Develop a performance measurement
     FDIC’s Procurement of                                  framework to consistently monitor and
     Administrative Goods and                               periodically report on the procurement
     Services                                               process and progress toward achieving
     January 21, 2005                                       goals to improve procurement economy
                                                            and efficiency.

     05-016                         1                       Ensure that division and office directors
     Security Controls Over the                             provide FDIC employees and contractors
     FDIC’s Electronic Mail (E-                             with sufficiently detailed guidance to facili-
     Mail) Infrastructure                                   tate informed decisions on when to encrypt
     March 31, 2005                                         sensitive e-mail communications.

                                    2*                      Evaluate alternative solutions to augment
                                                            the current implementation of
                                                            Entrust/Express for securing sensitive
                                                            e-mail communications.

                                    3                       Evaluate the feasibility of implementing
                                                            an e-mail policy compliance tool to achieve
                                                            greater assurance that sensitive communi-
                                                            cations are encrypted when appropriate.

                                    5■                      Develop a security plan for the e-mail
                                                            infrastructure that defines the FDIC's
                                                            security requirements and existing and
                                                            planned controls for ensuring those
                                                            requirements are satisfied.

     05-026                         1■                      Revise guidance to supervisory personnel
     Capital Provision Require-                             to discuss the use and consideration of
     ments Established Under                                Tier 1 Leverage Capital, Tier 1 Risk-Based
     Supervisory Corrective                                 Capital, and Total Risk-Based Capital ratios
     Actions                                                in the formulation and recommendation of
     July 15, 2005                                          capital-level provisions.
                                SEMIANNUAL REPORT TO THE CONGRESS                                                   49


Report Number,                     Significant                      Brief Summary of Planned Corrective
Title & Date                       Recommendation Number            Actions and Associated Monetary Amounts

                     MANAGEMENT                      ACT ION           IN     P R OCE S S

05-031                             1                                Establish a policy that takes an enterprise
FDIC’s Information Technol-                                         approach to defining the roles, responsibili-
ogy Configuration Manage-                                           ties, and overall principles and management
ment Controls Over                                                  expectations for performing configuration
Operating System Software                                           management on operating system software.
September 8, 2005

                                   2                                Develop configuration management plan(s)
                                                                    covering the four operating system soft-
                                                                    ware platforms addressed in this report
                                                                    consistent with federal standards and
                                                                    guidelines and industry-accepted practices.

05-037                             2■                               Develop and implement a software configu-
Controls Over the Risk-                                             ration management plan for the Risk-
Related Premium System                                              Related Premium System that incorporates
September 23, 2005                                                  the appropriate features of StarTeam.


■   The OIG has not yet evaluated management’s actions in response to OIG recommendations.
    The OIG has requested additional information to evaluate management’s actions in response
*    to the OIG recommendation.
50                               SEMIANNUAL REPORT TO THE CONGRESS


     Table II: Audit Reports Issued by Subject Area

                    AUDIT REPORT                                         QUESTIONED COSTS
                                                                                                   FUNDS
                                                                                                   PUT TO
       Number and                   Title                            Total        Unsupported      BETTER
       Date
                                                                                                   USE
      I N S U R A N C E

       06-008                       Consideration of Safety and
       February 17, 2006            Soundness Examination
                                    Results and Other Relevant
                                    Information in the FDIC’s
                                    Risk-Related Premium
                                    System

      C O N S U M E R      P R O T E C T I O N

       06-009                       FDIC’s Guidance to Institu-
       February 24, 2006            tions and Examiners for
                                    Implementing the Gramm-
                                    Leach-Bliley Act Title V and
                                    the Fair and Accurate Credit
                                    Transactions Act

      R E C E I V E R S H I P   M A N A G E M E N T

       06-003                       DRR’s Efforts to Recover
       December 6, 2005             Unclaimed Deposits

       06-004                       Project Management Frame-
       December 16, 2005            work for the Asset Servicing
                                    Technology Enhancement
                                    Project
      R E S O U R C E S     M A N A G E M E N T

       06-007                       FDIC’s Security Certification
       February 15, 2006            and Accreditation Program

       06-012                       Security Controls Over the
       March 31, 2006               FDIC’s Wireless Data Com-
                                    munications

       EVAL-06-001                  FDIC’s Equal Employment
       November 4, 2005             Opportunity Discrimination
                                    Complaint Process
       EVAL-06-005                  FDIC Safeguards Over Per-
       January 6, 2006              sonal Employee Information

       06-010                       FDIC’s Consolidated Facilities   $193,131                   $1,538,771
       March 30, 2006               Management Approach

       06-002                       Post-award Contract Review       $508,955     $463,125
       November 16, 2005

       06-006                       Post-award Contract Review       $2,687,876   $2,553,282
       February 1, 2006

      TOTALS FOR THE PERIOD                                          $3,389,962   $3,016,407    $1,538,771
                            SEMIANNUAL REPORT TO THE CONGRESS                                                  51


Table III: Audit Reports Issued with Questioned Costs
                                                                              Questioned Costs
                                                     Number
                                                                        Total              Unsupported


 A. For which no management decision has
    been made by the commencement of the
    reporting period.                                  2            $981,355               $20,000

 B. Which were issued during the reporting
    period.                                            3            $3,389,962             $3,016,407


 Subtotals of A & B                                    5            $4,371,317             $3,036,407

 C. For which a management decision was
    made during the reporting period.                  2            $482,594               $0
         (i) dollar value of disallowed costs.         0            $0                     $0
         (ii) dollar value of costs not
              disallowed.                              2            $482,594               $0

 D. For which no management decision has
    been made by the end of the reporting
    period.                                            2            $3,196,831             $3,016,407

    Reports for which no management decision
    was made within 6 months of issuance.              1            $691,892               $20,000



Table IV: Audit Reports Issued with Recommendations for
          Better Use of Funds
                                                                                 Number         Dollar Value


 A. For which no management decision has been made by the commence-
    ment of the reporting period.                                                 0              $0

 B. Which were issued during the reporting period.                                1              $1,538,771

 Subtotals of A & B                                                               1              $1,538,771

 C. For which a management decision was made during the reporting period.         1              $1,538,771
          (i) dollar value of recommendations that were agreed to by
              management.                                                         0              $0
                     - based on proposed management action.                       0              $0
                     - based on proposed legislative action.                      0              $0
          (ii) dollar value of recommendations that were not agreed to by
               management.                                                        1              $1,538,771

 D. For which no management decision has been made by the end of the
    reporting period.                                                             0              $0

 E. Reports for which no management decision was made within
    6 months of issuance.                                                         0              $0
52                           SEMIANNUAL REPORT TO THE CONGRESS


     Table V: Status of OIG Recommendations
              Without Management Decisions
     During this reporting period, there were four recommendations more than 6 months old
     without management decisions. The OIG issued a report on a post-award contract audit
     (05-030), dated August 25, 2005, containing the four recommendations. The report ques-
     tioned $691,892 ($20,000 unsupported) related to employee qualifications, approval of key
     personnel, and excess labor charges. The FDIC requested additional time to complete its
     review of the reported conditions. The FDIC expects to make a management decision on
     the recommendations by May 31, 2006.


     Table VI: Significant Revised Management Decisions
     During this reporting period, there were no significant revised management decisions.


     Table VII: Significant Management Decisions with Which
                the OIG Disagreed
     During this reporting period, there were no significant management decisions with which the
     OIG disagreed.


     Table VIII: Instances Where Information Was Refused
     During this reporting period, there were no instances where information was refused.
Abbreviations and
Acronyms




  ANB        American National Bank

 ASTEP       Asset Servicing Technology Enhancement Project

 BIF         Bank Insurance Fund

 BOP         Bank of the Panhandle

 BSB         Bank of Sierra Blanca

 C&A         certification and accreditation

 CEO         chief executive officer

 CFM         Consolidated Facilities Management

 COO         chief operations officer

 CRA         Community Reinvestment Act

 DIR         Division of Insurance and Research

 DRR         Division of Resolutions and Receiverships

 DSC         Division of Supervision and Consumer Protection

 ECU         Electronic Crimes Unit

 EEO         equal employment opportunity

 FACT Act    Fair and Accurate Credit Transaction Act of 2003

 FBI         Federal Bureau of Investigation


                                                                53
54                     SEMIANNUAL REPORT TO THE CONGRESS


     FCRA                Fair Credit Reporting Act of 1968

     FDIC                Federal Deposit Insurance Corporation

     FSLIC               Federal Savings and Loan Insurance Corporation

     GAO                 Government Accountability Office

     GLBA                Gramm-Leach-Bliley Act of 1999

     HSB                 Hawkeye State Bank

     IG                  Inspector General

     ILC                 industrial loan company

     IT                  Information Technology

     MNB                 Mauriceville National Bank

     NCUA                National Credit Union Administration

     NIHFCU              National Institutes of Health Federal Credit Union

     OCC                 Office of the Comptroller of the Currency

     ODEO                Office of Diversity and Economic Opportunity

     OERM                Office of Enterprise Risk Management

     OI                  Office of Investigations

     OIG                 Office of Inspector General

     OTS                 Office of Thrift Supervision

     PCA                 Production Credit Association

     PCIE                President’s Council on Integrity and Efficiency

     RRPS                Risk-Related Premium System

     SAIF                Savings Association Insurance Fund

     SCS                 San Clemente Securities, Inc.

     SFG                 Stevens Financial Group

     T&C Bank            Town & Country Bank of Almelund

     UDAA                1993 Unclaimed Deposits Amendment Act

     USA PATRIOT Act     Uniting and Strengthening America by Providing Appropriate
                         Tools Required to Intercept and Obstruct Terrorism Act of 2001
The Office of Inspector General (OIG) Hotline is a convenient mechanism
employees, contractors, and others can use to report instances of suspected fraud,
waste, abuse, and mismanagement within the FDIC and its contractor operations.
The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic
mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline is
designed to make it easy for employees and contractors to join with the OIG in its
efforts to prevent fraud, waste, abuse, and mismanagement that could threaten the
success of FDIC programs or operations.




To learn more about the FDIC OIG and for complete copies of audit
and evaluation reports discussed in this Semiannual Report, visit our
homepage: http://www.fdicig.gov




Federal Deposit Insurance Corporation
Office of Inspector General
3501 Fairfax Drive
Arlington, VA. 22226
